A-1
[J-86-2018]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE,
DOUGHERTY, WECHT, MUNDY, JJ.
COMMONWEALTH
OF PENNSYLVANIA,
Appellee
v.
MICHAEL J. HICKS,
Appellant

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 56 MAP 2017
Appeal from the Order
of the Superior Court
dated March 29, 2017
at No. 510 EDA 2016
Affirming Judgment
of Sentence from the
Lehigh County Court
of Common Pleas,
Criminal Division,
dated January 11, 2016
at No. CP-39-CR0005692-2014.
ARGUED:
December 4, 2018

OPINION
JUSTICE WECHT

DECIDED: May 31, 2019

In a line of Fourth Amendment jurisprudence that
began with the landmark decision in Terry v. Ohio, 392
U.S. 1 (1968), the Supreme Court of the United States
has approved of “stop and frisk” practices as a limited
departure from the requirement of probable cause and
the necessity of warrants for searches and seizures. A
cornerstone of modern law enforcement methods, “stop

A-2
and frisk” is a practical tool designed to encourage the
effective investigation and prevention of crime, while
maintaining a balance between the constitutionally
protected privacy interests of the individual and the
needs and safety of law enforcement personnel. Only
two conditions must be satisfied to validate the practice—one to justify the “stop,” and another to allow a
“frisk.”
First, the investigatory stop must be lawful.
That requirement is met in an on-the-street
encounter, Terry determined, when the police
officer reasonably suspects that the person
apprehended is committing or has committed
a criminal offense. Second, to proceed from a
stop to a frisk, the police officer must reasonably suspect that the person stopped is armed
and dangerous.
Arizona v. Johnson, 555 U.S. 323, 326-27 (2009).
Since 1991, in circumstances where a police officer
encounters a person carrying a concealed firearm, our
Superior Court has applied the inverse of this bedrock
rule. Specifically, in Commonwealth v. Robinson, 600
A.2d 957 (Pa. Super. 1991), the Superior Court held
that the “possession of a concealed firearm by an individual in public is sufficient to create a reasonable
suspicion that the individual may be dangerous, such
that an officer can approach the individual and briefly
detain him in order to investigate whether the person
is properly licensed.” Id. at 959 (hereinafter, the

A-3
“Robinson rule”).1 In the instant case, the Superior
Court applied the Robinson rule to deem lawful the seizure of an individual based solely upon his possession
of a concealed handgun, even though he was licensed
in Pennsylvania to carry a firearm in such a manner.
We granted allowance of appeal in order to consider the viability of the Robinson rule. Because we
conclude that the rule contravenes the requirements of
the Terry doctrine, and thus subverts the fundamental
protections of the Fourth Amendment, we overrule
Robinson and its progeny. The Superior Court’s decision in the instant case having descended from Robinson’s erroneous proposition of law, and there being no
other lawful basis for the seizure at issue, we reverse
the order of the Superior Court.
I.

Background

Although we will revisit the circumstances of this
case in greater detail to apply the correct rule of law,
infra Part III, a brief summary of the facts found by
the suppression court sets the stage for the lower
courts’ application of the Robinson rule. On June 28,
2014, at approximately 2:30 a.m., a remote camera operator conducting live surveillance of a gas station and
convenience store in the City of Allentown notified
1

See also Commonwealth v. Mason, 130 A.3d 148, 153 (Pa.
Super. 2015); Commonwealth v. Hall, 929 A.2d 1202, 1207-08 (Pa.
Super. 2007); Commonwealth v. Stevenson, 894 A.2d 759, 772 (Pa.
Super. 2006). The Superior Court also has applied the Robinson
rule in numerous unpublished decisions, including the instant
case.

A-4
police officers that a patron of the establishment was
in possession of a firearm. According to the suppression
court’s factual recitation, the “camera operator advised
officers that the [observed individual] showed the firearm to another patron, put the firearm in his waistband, covered it with his shirt, and walked inside” the
convenience store. Order, 9/18/2015, at 1 n.1.2
The observed individual was Michael Hicks. It
later emerged that Hicks possessed a valid license to
carry a concealed firearm. See 18 Pa.C.S. § 6109(a) (“A
license to carry a firearm shall be for the purpose of
carrying a firearm concealed on or about one’s person
or in a vehicle throughout this Commonwealth.”).
Hicks was not statutorily prohibited from possessing a
firearm. Accordingly, on the morning in question, and
at the observed location, there was nothing unlawful
about Hicks’ possession of his handgun, nor the manner in which he carried it.
While responding police officers were en route,
Hicks entered and exited the convenience store, then
reentered his vehicle. Before Hicks could exit the parking lot, numerous police officers in marked vehicles intercepted and stopped Hicks’ vehicle. Believing that
Hicks had moved his hands around inside the vehicle,
2

Although the suppression court found that the police officers received information that Hicks “showed” the firearm to the
other patron, the officer who testified at the suppression hearing
repeatedly stated that the dispatch advised officers that the suspect was “brandishing” a firearm—a term with a distinct connotation. See Notes of Testimony, 7/14/2015, at 6-7, 15. We address
this incongruity at greater length below, infra Part III.

A-5
Officer Ryan Alles drew his service weapon as he approached Hicks’ vehicle and ordered Hicks to keep his
hands up. Officer Kyle Pammer, arriving at the vehicle
moments after Officer Alles, restrained Hicks’ arms
while Officer Alles reached into the vehicle and retrieved Hicks’ handgun from a holster on his waistband. Hicks “was removed from the vehicle for safety
reasons and handcuffed.” Order, 9/18/2015, at 2 n.1. At
that point, the officers noticed the odor of an alcoholic
beverage emanating from Hicks. The officers then
searched Hicks’ person and, in his pocket, discovered a
bag that contained a small amount of marijuana.
Upon further investigation, the officers determined that Hicks was licensed to carry a concealed
firearm. Accordingly, Hicks was not charged with any
crime relating to the firearm, nor with any crime relating to the other patron, to whom Hicks “showed” the
firearm. Order, 9/18/2015, at 1 n.1. However, having
discovered evidence of Hicks’ suspected intoxication
and possession of marijuana, the police officers arrested Hicks and charged him with driving under the
influence of alcohol (“DUI”)—high rate of alcohol (second offense), DUI—general impairment (second offense), possession of a small amount of marijuana, and
disorderly conduct, graded as a third-degree misdemeanor.3
On April 15, 2015, Hicks filed an omnibus pre-trial
motion seeking suppression of the evidence and a writ
3

See 75 Pa.C.S. § 3802(b); 75 Pa.C.S. § 3802(a)(1); 35 P.S.
§ 780-113(a)(31); 18 Pa.C.S. § 5503(a)(4), respectively.

A-6
of habeas corpus, the latter motion requesting dismissal of the disorderly conduct charge due to the absence
of any evidence establishing the elements of that
crime. Following a hearing on Hicks’ motion on July 14,
2015, the court granted Hicks’ motion for a writ of
habeas corpus and dismissed the charge of disorderly
conduct, finding that there “was no evidence presented
that [Hicks’] actions were intended to cause substantial harm or serious inconvenience, or that he persisted
in disorderly conduct after reasonable warning or request to desist.” Order, 9/18/2015, at 2 n.2. However,
the court denied Hicks’ motion to suppress, reasoning
as follows:
“In limited circumstances, an individual may
be stopped, briefly detained, and frisked for
investigatory purposes.” [Robinson, 600 A.2d
at 959]. Possession of a concealed weapon in
public creates a reasonable suspicion justifying an investigatory stop in order to investigate whether the person is properly licensed.
Id. (holding recognized by Commonwealth v.
Hall, 929 A.2d 1202, 1207 (Pa. Super. 2007)).
Here, the police had information that [Hicks]
was carrying a concealed weapon, and were
justified in briefly detaining [Hicks] in order
to determine whether [he] was properly licensed. As officers approached [Hicks], he
moved his hands towards his waistband. This
provided additional information to justify the
brief detention of [Hicks] in order to investigate further. Under these circumstances, the
stop and detention of [Hicks] was justified,
and suppression is not warranted.

A-7
Id. at 2 n.1. Although the suppression court placed
some degree of weight upon the testimony indicating
that Hicks had moved his hands inside the car, the
court clearly opined that the detention was justified
prior to that observation, based solely upon the Robinson rule. Simply stated, the suppression court concluded that, under Robinson, it was lawful for police
officers to seize Hicks immediately upon learning that
Hicks possessed a concealed firearm in public.
Hicks proceeded to a non-jury trial. The court
found Hicks guilty of one DUI count, and acquitted him
of the remaining charges. Hicks was sentenced to a
term of incarceration of thirty days to six months and
was assessed a monetary fine.
The Superior Court affirmed Hicks’ judgment of
sentence. See Commonwealth v. Hicks, 510 EDA 2016,
2017 WL 1176412 (Pa. Super. Mar. 29, 2017) (unpublished). The court rejected Hicks’ argument that
the immediate and forcible nature of his seizure
amounted to a custodial arrest rather than an investigative detention, concluding instead that the officers
had authority to use physical coercion to advance their
investigation of the information received through the
dispatch. As for the existence of reasonable suspicion
justifying that investigative detention, the Superior
Court, unlike the suppression court, referred to Officer
Pammer’s testimony, wherein he asserted that the dispatch advised the officers that Hicks had “brandished”
a firearm. See supra n.2. However, the Superior Court
did not conclude that the purported “brandishing” established reasonable suspicion that a violent crime

A-8
might be in progress, or that someone might be in imminent danger. Rather, like the suppression court, the
Superior Court relied exclusively upon the Robinson
rule, as applied in Commonwealth v. Mason, 130 A.3d
148, 151 (Pa. Super. 2015). The Superior Court held
that “[p]ossession of a concealed firearm in public is
sufficient to create a reasonable suspicion that the individual may be dangerous, such that an officer can approach the individual and briefly detain him in order
to investigate whether the person is properly licensed.”
Hicks, 2017 WL 1176412, at *4 (quoting Mason, 130
A.3d at 153). “Thus,” the Superior Court concluded,
“the [suppression] court properly ascertained whether
officers had a reasonable suspicion that Hicks possessed a concealed firearm in public.” Id.
Having determined that Hicks’ initial detention
was lawful because he possessed a concealed firearm,
the Superior Court concluded that the remainder of
the officers’ conduct was justified. The officers’ actions
in removing Hicks from his vehicle and handcuffing
him, the Superior Court held, were “reasonably necessary to ‘freeze the status quo,’ prevent Hicks from leaving the scene ‘in order to ascertain his identity and
gather additional information,’ and to protect the officers’ personal safety.” Id. (brackets omitted; citing
United States v. Hensley, 469 U.S. 221, 235 (1985);
In re D.M., 727 A.2d 556, 557 (Pa. 1999)). Only then,
during the course of the purportedly lawful encounter,
did the officers notice an odor of alcohol. Accordingly,
the Superior Court opined, “the stop was supported

A-9
by the requisite reasonable suspicion of criminal activity.” Id.
Hicks sought allowance of appeal in this Court,
which we granted in order to consider whether the Superior Court’s continued application of the Robinson
rule comports with the requirements of the Fourth
Amendment.4 Although our analysis requires us to
consider Pennsylvania’s statutory law regarding the
possession and carrying of firearms, our polestar is the
Fourth Amendment doctrine upon which the Robinson
rule ostensibly is premised—the law of Terry v. Ohio
and its progeny.
II.

Analysis
A. Governing Law

Hicks’ claim sounds in the protection from unlawful searches and seizures guaranteed by the Fourth
Amendment to the United States Constitution, made
applicable to the States through the Fourteenth
Amendment, and by Article I, Section 8, of the

4

Adopting Hicks’ phrasing of the question, we granted allowance of appeal to determine:
Whether the Superior Court’s bright line rule holding
that possession of a concealed firearm in public is sufficient to create reasonable suspicion is a matter of
such substantial public importance as to require
prompt and definitive resolution by the Pennsylvania
Supreme Court?
Commonwealth v. Hicks, 172 A.3d 583 (Pa. 2017) (per curiam).

A-10
Pennsylvania Constitution.5 The Fourth Amendment
provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
U.S. CONST. amend. IV. Pennsylvania’s constitutional
provision, similar in its phrasing but distinct in the nature and scope of its protections, provides:
The people shall be secure in their persons,
houses, papers and possessions from unreasonable searches and seizures, and no warrant to search any place or to seize any person
5

Hicks also invokes his constitutional right to keep and bear
arms, guaranteed under the Second Amendment to the United
States Constitution and Article I, Section 21 of the Pennsylvania
Constitution. See U.S. CONST. amend. II (“A well-regulated Militia, being necessary to the security of a free State, the right of the
people to keep and bear Arms, shall not be infringed.”); PA. CONST.
art. I, § 21 (“The right of the citizens to bear arms in defence of
themselves and the State shall not be questioned.”). Although the
right to keep and bear arms serves as an important conceptual
backdrop to numerous legal issues surrounding firearms and the
enforcement of the criminal law, our analysis will not focus upon
the contours of that right. The issue presented is one of law enforcement practice, and the constitutional right at issue is the
freedom from unreasonable, warrantless seizure of the person for
purposes of criminal investigation. As such, this case is governed
by the Fourth Amendment’s Terry doctrine, not by the right to
keep and bear arms.

A-11
or things shall issue without describing them
as nearly as may be, nor without probable
cause, supported by oath or affirmation subscribed to by the affiant.
PA. CONST. art. I, § 8. Although it is beyond cavil that
Article I, Section 8, of the Pennsylvania Constitution
provides broader protection from unreasonable searches
and seizures than its federal counterpart, see generally
Commonwealth v. Edmunds, 586 A.2d 887 (Pa. 1991),
this Court long has held that the Terry doctrine “sets
forth the reasonableness standard for Article I, § 8
of the Pennsylvania Constitution.” Commonwealth v.
Brown, 996 A.2d 473, 476 (Pa. 2010); see Commonwealth v. Jackson, 698 A.2d 571, 573 (Pa. 1997) (noting
that “Pennsylvania has always followed Terry in stop
and frisk cases”). Accordingly, and because Hicks does
not aver that our Constitution compels a different result, we need not conduct separate analyses of the applicable constitutional provisions.
Our standard of review of an order denying suppression is well-settled:
When we review the ruling of a suppression
court we must determine whether the factual
findings are supported by the record. When it
is a defendant who has appealed, we must
consider only the evidence of the prosecution
and so much of the evidence for the defense
as, fairly read in the context of the record as a
whole, remains uncontradicted. Assuming
that there is support in the record, we are
bound by the facts as are found and we may
reverse the suppression court only if the legal

A-12
conclusions drawn from those facts are in error.
Jackson, 698 A.2d at 572 (quoting Commonwealth v.
Cortez, 491 A.2d 111, 112 (Pa. 1985)). Although we will
return to the suppression court’s factual findings in order to resolve the instant appeal, our principal task is
to review the lower courts’ application of the Robinson
rule—treated as dispositive of the lawfulness of a seizure even absent any other facts suggesting criminal
activity. This is a pure question of law. “As an appellate
court, we are not bound by the suppression court’s conclusions of law; rather, when reviewing questions of
law, our standard of review is de novo and our scope of
review is plenary.” Commonwealth v. Wilmer, 194 A.3d
564, 567 (Pa. 2018).
Because the conduct to which the Robinson rule
applies is regulated and authorized by statute, we
begin with a brief review of the law relating to the carrying of firearms in this Commonwealth. The statutes
providing for the sale, transfer, possession, and carrying of firearms are set forth in the Pennsylvania Uniform Firearms Act of 1995, 18 Pa.C.S. §§ 6101-27
(“UFA”). In this Commonwealth, firearms lawfully may
be possessed by any individual not prohibited to do so
under 18 Pa.C.S. § 6105 or otherwise barred by federal
law. With the exception of certain locations such as
school property or court facilities, where the possession
of weapons is prohibited by statute, see, e.g., 18 Pa.C.S.
§§ 912-13, firearms lawfully may be carried in public
in all parts of Pennsylvania. The manner of their

A-13
carrying, however, is subject to certain statutory limitations and licensing requirements.
Except in Philadelphia, no license is required in
order to carry a firearm openly on one’s person. However, a county-issued license to carry a firearm is required for the carrying of a firearm “in any vehicle” or
“concealed on or about” one’s person, and carrying in
such a manner “without a valid and lawfully issued license” constitutes a criminal offense, generally graded
as a third-degree felony. 18 Pa.C.S. § 6106(a). The issuance of a license to carry a firearm, of course, exempts
an individual from the limitations of Section 6106, and
expressly authorizes the carrying of a firearm “concealed on or about one’s person or in a vehicle throughout this Commonwealth.” 18 Pa.C.S. § 6109(a). A
license to carry a firearm further authorizes an individual to carry a firearm openly or concealed within
the City of Philadelphia. 18 Pa.C.S. § 6108.6 Accordingly, “[i]n all parts of Pennsylvania, persons who are
licensed may carry concealed firearms.” Commonwealth v. Hawkins, 692 A.2d 1068, 1071 n.4 (Pa. 1997)
(plurality). Stated otherwise, an individual licensed
to carry a firearm may do so in public, openly or

6

Consistent with the General Assembly’s reservation of the
exclusive prerogative to regulate firearms in this Commonwealth,
codified at 18 Pa.C.S. § 6120, the additional requirement that an
individual possess a license in order to carry a firearm openly
within the City of Philadelphia is prescribed by statute, not by
municipal ordinance. See 18 Pa.C.S. § 6108; see generally Ortiz v.
Commonwealth, 681 A.2d 152 (Pa. 1996).

A-14
concealed, within a vehicle or without, throughout
every municipality in Pennsylvania.
Under Pennsylvania law, there can be no doubt
that a properly licensed individual who carries a concealed firearm in public engages in lawful conduct. Indeed, millions of people lawfully engage in this conduct
on a daily basis, both within this Commonwealth and
across the nation.7 The Pennsylvania State Police reports that, in Pennsylvania, 237,344 licenses to carry
firearms were issued in 2015; 300,565 were issued in
2016; and 290,958 were issued in 2017.8
Bearing this in mind, we turn to the authority that
the Robinson rule heretofore has bestowed upon law
enforcement with regard to individuals carrying concealed firearms, including the hundreds of thousands
7

See Royce de R. Barondes, Conditioning the Exercise of
Firearms Rights On Unlimited Terry Stops, 54 IDAHO L. REV. 297,
300 (2018) (hereinafter, “Barondes”) (quoting Ali RowhaniRahbar et al., Loaded Handgun Carrying Among US Adults,
2015, 107 AM. J. PUB. HEALTH 1930, 1930 (2017)) (“The number of
holders of concealed firearms permits has grown explosively in
recent years—according to a recent study, from ‘2.7 million in
1999 to 4.6 million in 2007, 11 million in 2014, and 14.5 million
in 2016.’ The study further reports ‘[O]ur findings suggest that
nearly 9 million [U.S.] adult handgun owners carry loaded handguns monthly, approximately 3 million of whom do so every day,
and that most report protection as the primary reason for carrying regardless of carrying frequency.’ ”).
8
See Pennsylvania State Police, Firearms Annual Report
2015, Appendix D; Pennsylvania State Police, Firearms Annual
Report 2016, Appendix D; Pennsylvania State Police, Firearms
Annual Report 2017, Appendix D. These reports are available
at https://www.psp.pa.gov/firearms-information/Pages/FirearmsInformation.aspx (last visited January 23, 2019).

A-15
of Pennsylvanians licensed to do so. The Robinson rule
envisions an encounter between a law enforcement officer and a private citizen that is not authorized by a
warrant embodying a neutral and detached magistrate’s determination of probable cause for a search
or seizure. Although not every interaction between a
citizen and a law enforcement officer implicates the
Fourth Amendment, “[t]he Fourth Amendment, of
course, applies to all seizures of the person, including
seizures that involve only a brief detention short of a
traditional arrest.” Brown v. Texas, 443 U.S. 47, 50
(1979) (internal quotation mark omitted).
For purposes of the Fourth Amendment, a person
is “seized” when, “in view of all the circumstances surrounding the incident, a reasonable person would have
believed that he was not free to leave.” United States v.
Mendenhall, 446 U.S. 544, 554 (1980).9 When a police
officer “accosts an individual and restrains his freedom
to walk away, he has ‘seized’ that person.” Brown, 443
U.S. at 50 (quoting Terry, 392 U.S. at 16). In assessing
the impression that would be given to a reasonable
person, a court must determine “whether, taking into
account all of the circumstances surrounding the encounter, the police conduct would ‘have communicated
to a reasonable person that he was not at liberty to
9

The Mendenhall Court stressed that “[t]he purpose of the
Fourth Amendment is not to eliminate all contact between the
police and the citizenry, but ‘to prevent arbitrary and oppressive
interference by enforcement officials with the privacy and personal security of individuals.’ ” Mendenhall, 446 U.S. at 553-54
(quoting United States v. Martinez-Fuerte, 428 U.S. 543, 554
(1976)).

A-16
ignore the police presence and go about his business.’ ”
Florida v. Bostick, 501 U.S. 429, 437 (1991) (quoting
Michigan v. Chesternut, 486 U.S. 567, 569 (1988)).
As this Court frequently has noted, warrantless
interactions between citizens and police officers fall
into three categories, distinguished one from another
by consideration of whether the citizen has been
“seized” within the meaning of the Fourth Amendment,
the intrusiveness and extent of the seizure, and the
justification therefor. The first type of interaction—a
mere encounter—does not constitute a seizure. It generally involves a request for information and requires
no particular suspicion of criminality because it carries
“no official compulsion to stop or to respond.” Commonwealth v. Ellis, 662 A.2d 1043, 1047 (Pa. 1995) (citing
Florida v. Royer, 460 U.S. 491 (1983); Bostick, supra).
During a mere encounter, “[a]s long as the person to
whom questions are put remains free to disregard the
questions and walk away, there has been no intrusion
upon that person’s liberty or privacy as would under
the Constitution require some particularized and objective justification.” Mendenhall, 446 U.S. at 554.
We recognize only two types of lawful, warrantless
seizures of the person, both of which “require an appropriate showing of antecedent justification: first,
an arrest based upon probable cause; second, a ‘stop
and frisk’ based upon reasonable suspicion.” Commonwealth v. Melendez, 676 A.2d 226, 228 (Pa. 1996)
(quoting Commonwealth v. Rodriquez, 614 A.2d 1378,
1382 (Pa. 1992)). Here, we are concerned with this
latter type of seizure—interchangeably labeled an

A-17
“investigative detention,” a “Terry stop,” or, when coupled with a brief pat-down search for weapons on the
suspect’s person, a “stop and frisk.”
“To maintain constitutional validity, an investigative detention must be supported by a reasonable and
articulable suspicion that the person seized is engaged
in criminal activity and may continue only so long as
is necessary to confirm or dispel such suspicion.” Commonwealth v. Strickler, 757 A.2d 884, 889 (Pa. 2000).
The asserted grounds for an investigative detention
must be evaluated under the totality of the circumstances. See United States v. Cortez, 449 U.S. 411, 41718 (1981). So long as the initial detention is lawful,
nothing precludes a police officer from acting upon the
fortuitous discovery of evidence suggesting a different
crime than that initially suspected—such as the odor
of alcohol on the breath of a driver, as occurred in the
instant case. However, an unjustified seizure immediately violates the Fourth Amendment rights of the suspect, taints the evidence recovered thereby, and
subjects that evidence to the exclusionary rule. See,
e.g., Melendez, 676 A.2d at 229-30.
Although the Robinson rule ostensibly authorizes
the ascertainment of an individual’s licensing status,
the encounter contemplated is not merely a request
for information that a citizen is entitled to ignore. Rather, the Robinson rule characterizes the carrying of a
concealed firearm as per se reasonable suspicion authorizing the use of official force to seize an individual
“in order to investigate whether the person is properly
licensed,” i.e., whether the person is committing a

A-18
criminal offense under 18 Pa.C.S. § 6106. Robinson,
600 A.2d at 959. Thus, the encounter envisioned by the
Robinson rule is ostensibly an investigative detention,
and, as such, a seizure governed by the Fourth Amendment’s Terry doctrine.
B. The Parties’ Arguments
Hicks contends that, because an investigative detention must be premised upon reasonable suspicion
of criminal activity, and because Pennsylvania law
provides for the lawful carrying of firearms, “mere possession of a weapon, concealed or otherwise, is not
‘criminal conduct,’ nor is it inherently indicative of
criminal activity afoot.” Brief for Hicks as 12. Hicks
further argues that the Robinson rule not only misapplied the Terry doctrine, but also reflected a misreading of the Superior Court’s opinion in Commonwealth
v. Mears, 424 A.2d 533 (Pa. Super. 1981), and this
Court’s opinion in Commonwealth v. Lagana, 537 A.2d
1351 (Pa. 1988). See Brief for Hicks at 13-15. In Hicks’
view, the Robinson rule was flawed from its inception.
Finally, Hicks argues that, without recourse to the
erroneous Robinson rule, no information available to
the officers would allow for a finding of reasonable suspicion of criminality. Rather, Hicks notes that, as confirmed by the camera operator’s video footage and the
police radio broadcasts (submitted into evidence at the
suppression hearing as Defense Exhibit 1 and 2, respectively), Hicks merely entered and exited a retail
establishment, got into his vehicle, and attempted to

A-19
drive away. Brief for Hicks at 16. Because none of this
conduct gave rise to a reasonable suspicion that criminal activity was afoot, Hicks asserts that the police
officers’ seizure of his person violated the Fourth
Amendment and Article I, Section 8 of the Pennsylvania Constitution, and the evidence that the officers derived from that seizure therefore must be suppressed.10
The Commonwealth, by contrast, asserts that the
per se approach of Robinson is a justifiable application
of the Terry doctrine. Although the Commonwealth
does not dispute the legality of carrying firearms in
public throughout Pennsylvania, it emphasizes that,
under the totality of the circumstances, “wholly lawful
conduct might justify the suspicion that criminal activity [is] afoot.” Brief for Commonwealth at 5 (quoting
Reid v. Georgia, 448 U.S. 438, 441 (1980) (per curiam)).
The Commonwealth further stresses that the reasonable suspicion standard “does not deal with hard certainties, but with probabilities.” Id. at 6 (quoting
United States v. Cortez, 449 U.S. 411, 418 (1981)). The
assessment of reasonable suspicion, the Commonwealth highlights, “must be based on common[ ]sense.”
10

Hicks’ position is supported by several amici curiae, including Members of the Pennsylvania General Assembly, Firearms Owners Against Crime, the Firearms Policy Coalition, and
the Firearms Policy Foundation. Hicks’ amici argue that the
Robinson rule is contrary to this Court’s precedent and to the general teachings of the Supreme Court of the United States’ Fourth
Amendment jurisprudence. Amici further point to numerous decisions of the courts of other states and federal appellate courts
that have addressed the specific question at issue here, and which
have held that mere possession of a concealed firearm provides no
basis for an investigative detention.

A-20
Id. at 9 (quoting Illinois v. Wardlow, 528 U.S. 119, 125
(2000)). This “common sense,” the Commonwealth posits, “would seem to prescribe . . . the fact that a person
is observed carrying a concealed weapon in public
would warrant a simple request by a police officer to
determine whether or not the person is licensed.” Id.
Reiterating its central premise regarding the potentially suspicious nature of lawful conduct, the Commonwealth stresses that Terry, itself, involved “purely
legal activity,” i.e., walking along a public street and
peering through a store’s windows. Id. at 11. Although
this conduct was not ipso facto criminal, the facts of
Terry gave rise to reasonable suspicion that the individuals may have been “casing” the store in preparation for a robbery. Similarly, the Commonwealth
asserts:
Notwithstanding that carrying a firearm is a
legal act in Pennsylvania, common[ ]sense dictates where police are confronted with a person carrying a firearm concealed in his
waistband and car while in public, an officer
is not only justified, but duty bound to conduct
a brief detention to ascertain that individual’s
license to do so.
Id. (emphasis in original).
Although several of this Court’s previous decisions have found no justification for investigative detentions based upon anonymous reports of individuals
in possession of firearms, see Jackson, 698 A.2d at
575; Hawkins, 692 A.2d at 1070-71 (plurality), the

A-21
Commonwealth attempts to distinguish those cases
based upon the anonymous nature of the tips at issue
in those cases. See Brief for Commonwealth at 14-15.
Finally, the Commonwealth maintains that, even absent application of Robinson’s categorical approach to
concealed firearms, “there was additional information
that serve[d] to bolster the officers’ reasonable suspicion and justified their actions.” Id. at 16. The available
information, the Commonwealth asserts, was:
[A]t 3:00 a.m., police received information
from the operator of a city owned surveillance
camera that an individual at the Gulf Station
displayed a firearm to another patron at the
station, and that the person with the firearm
was driving a silver Chev[rolet] Impala. The
video from the camera clearly shows the firearm concealed in [Hicks’] waistband and that,
despite the hour, there are a number of individuals at this location. Officer Pammer also
testified that the Gulf Station is located in a
high crime neighborhood, where police regularly receive calls regarding drug dealing, people with weapons and loitering.
Id. (citations to Notes of Testimony omitted).11

11

The Pennsylvania District Attorneys Association (“PDAA”)
filed an amicus curiae brief in support of the Commonwealth. Like
the Commonwealth, the PDAA seeks to distinguish previous decisions of this Court based upon the absence of an anonymous tip
in this case, and further disputes any reliance upon our plurality
decision in Hawkins.
With regard to the validity of the Robinson rule under general
Fourth Amendment principles, however, the PDAA first opines

A-22
C. Discussion
i. This Court’s Precedent
Although this Court has not addressed the sort of
per se rule that Robinson endorses, we have considered
the existence of reasonable suspicion in the so-called
“man with a gun” scenario, in which police receive a
report from an anonymous source that there is an
armed individual at a given location. In light of the
parties’ disparate views of this Court’s earlier precedents, the most natural place to begin our analysis is
this Court’s decision in Lagana—a case of particular
that it is “eminently reasonable” for police officers to “conduct a
brief investigation” of individuals in possession of concealed firearms “for the purpose of ascertaining that the individual is not
unlawfully possessing the firearm.” Amicus Brief for PDAA at 12.
However, in apparent disagreement with the argument advanced
throughout the Commonwealth’s principal brief, PDAA then clarifies that “it is not the position of your amicus that every person
who is carrying a concealed weapon must be interdicted and investigated, but when the facts known to the officer support the
belief that the person may be unlawfully possessing a concealed
firearm, he should be permitted to conduct the investigation.” Id.
at 13.
Finally, PDAA asserts that, notwithstanding application of the
Robinson rule, the seizure of Hicks nonetheless was supported by
reasonable suspicion of criminal activity. Like the Commonwealth, PDAA focuses upon Hicks’ presence in a high crime area
during early-morning hours. PDAA additionally emphasizes its
understanding that Hicks’ firearm was concealed in his waistband without a holster, a fact that it asserts is “inconsistent with
lawful possession.” Id. at 14. However, this latter assertion of fact
is wholly inaccurate, as a plain reading of the suppression court’s
findings of fact reveals that, during the seizure, police officers
“removed the firearm from a holster on [Hicks’] person.” Order,
9/18/2015, at 2 n.1 (emphasis added).

A-23
relevance to the question presented here, in that the
Robinson court reasoned that its per se approach to
concealed firearms was merely an express articulation
of what it viewed as the “implicit foundation” of
Lagana. See Robinson, 600 A.2d at 959 (“The implicit
foundation of . . . Lagana is that possession of a concealed firearm by an individual in public is sufficient
to create a reasonable suspicion that the individual
may be dangerous, such that an officer can approach
the individual and briefly detain him in order to investigate whether the person is properly licensed.”).
In Lagana, this Court held that an investigative
detention was supported by reasonable suspicion of
criminal activity where the police received an anonymous report of an armed individual wearing a yellow
raincoat at a specified location and, upon their arrival,
officers observed an individual matching the description who was “casing” a restaurant with a pair of binoculars. Lagana, 537 A.2d at 1354-55. The Lagana
Court indeed referred to the potential dangers that an
armed individual may pose to public safety. Id. at 1354.
However, this Court emphasized the particular behavior that the police officers observed when they arrived
at the location identified by the anonymous tip, where
they “discovered a white male in his early twenties
wearing a yellow raincoat who made his presence even
more obvious because he was casing a business establishment with a pair of binoculars in the pouring rain.”
Id. Thus, the officers’ observations not only corroborated the description of the individual reported, but established that he was engaged in “suspicious conduct

A-24
under the circumstances,” which justified the initiation
of an investigative detention. Id.
This Court clarified Lagana’s reasoning in Jackson, making clear that the presence of a concealed firearm was not dispositive in Lagana:
While the suggestion was indeed made in
Lagana, that the risk posed by firearms
should be factored into the reasonable suspicion analysis, that observation was dictum. In
Lagana, an anonymous caller provided the police with a description and location of the suspect, and stated that he was armed. When the
police arrived, they observed the suspect “casing” a store using binoculars, which is precisely the sort of suspicious activity which
arose in Terry itself. The police therefore already had the requisite reasonable suspicion
to stop and frisk Mr. Lagana, even absent any
allegation that he was armed.
Jackson, 698 A.2d at 575. Because the suspicion in Lagana hinged upon the “casing” of a business establishment rather than the mere possession of a concealed
firearm, the Robinson court’s inference regarding the
“implicit foundation” of Lagana was unwarranted.
In Hawkins, this Court, albeit in a plurality opinion, more directly addressed and rejected the notion
that the mere possession of a firearm may constitute
grounds for an investigative detention. Like Lagana,
Hawkins involved an anonymous report of a man who
possessed a firearm. Chief Justice Flaherty, writing for

A-25
the Court and joined by Justices Zappala and Cappy—
with Justice Nigro concurring in the result but not
writing separately—opined that the anonymous tip at
issue was not corroborated sufficiently, and that the police “had no independent reason to believe that the suspect may have been involved in criminal activity.”
Hawkins, 692 A.2d at 1071 (plurality).
In Hawkins, the Commonwealth argued that, notwithstanding the absence of any facts providing an independent basis for a finding of reasonable suspicion,
the “police have a duty to stop and frisk when they receive information from any source that a suspect has a
gun.” Id. The lead opinion described the Commonwealth’s position as “radical” and inconsistent with
Pennsylvania law, which provides for the licensed carrying of firearms. Id. The Hawkins plurality opined
that the Commonwealth’s position would not comport
with the Pennsylvania Constitution, and further would
seem “more likely to endanger than to protect the public” inasmuch as “[u]necessary police intervention, by
definition, produces the possibility of conflict where
none need exist.” Id.
Hawkins is a non-binding plurality decision,
which can be considered for its persuasive value only.
However, only three months later, this Court decided
Jackson, which we stated was “factually indistinguishable from Hawkins.” Jackson, 698 A.2d at 575. Jackson,
like Lagana and Hawkins, addressed an anonymous
report of a man with a gun. The anonymous tipster did
not describe any suspicious conduct beyond the possession of a firearm and, unlike in Lagana, the responding

A-26
officer did not observe any suspicious conduct when he
located the reported individual. Id. at 572 (“There is
no contention that the appellant was acting suspiciously.”). This Court concluded that, in the absence of
any suspicious activity, the mere identification of an
individual matching the description provided in the
anonymous tip was an insufficient basis upon which to
conduct an investigative detention. Id. at 575.
In Jackson, the Commonwealth revisited the “radical position” that it had offered in Hawkins. This time,
a Majority of the Court resoundingly rejected the Commonwealth’s proposition:
The Commonwealth contends . . . that the degree of danger to the police and the public
from armed criminals is so great that if an
anonymous caller provides a physical description of the individual, an accurate location
and an allegation that the individual is
armed, a Terry stop is justified. That argument will not withstand constitutional scrutiny. The danger to the police and public from
firearms was already factored into the balance when the requirement of reasonable suspicion was articulated in Terry. To adopt the
position that the Commonwealth urges is in
reality to overrule Terry in favor of a lower
standard of protection under the state and
federal constitutions, a decision that we are
not empowered to make.
Jackson, 698 A.2d at 575.

A-27
Unlike Hawkins, Jackson is binding precedent in
this Court. Importantly, as noted above, Jackson clarified that the lawfulness of the investigative detention
in Lagana was not dependent upon the presence or absence of a firearm, but rather was justified by the police
officers’ observations of the particular suspect’s conduct. Consequently, Hicks is correct that the Robinson
rule is not an accurate articulation of the “implicit
foundation” of Lagana. Robinson, 600 A.2d at 959.
Moreover, Jackson’s rejection of the Commonwealth’s
categorical approach to the seizure of individuals in
possession of firearms casts a considerable shadow
over the validity of the Robinson rule. However,
Lagana, Hawkins, and Jackson may only take us so far,
in that each case, as the Commonwealth and its amicus highlight, involved an anonymous tip—an additional fact that implicates distinct questions regarding
the reliability of the information upon which police officers act.
As such, we will afford the Commonwealth the
benefit of the doubt and conclude that Jackson is at
least arguably distinguishable from the question at
bar due to the additional considerations that attend
the evaluation of anonymous tips, which were at issue
in Lagana, Hawkins, and Jackson, but have no application herein. We accordingly proceed to address the
validity of the Robinson rule upon its own merits, notwithstanding its origin as an erroneous extension of
Lagana.
Before this Court, the Commonwealth again advanced its “radical position,” Hawkins, 692 A.2d at

A-28
1071, in the present iteration contending that police
officers are not only entitled, but “duty bound” to seize
and investigate the licensing status of every individual
who carries a concealed firearm in Pennsylvania. Brief
for Commonwealth at 11. We have little difficulty in
again rejecting this proposition, because we conclude
that the Robinson rule contravenes the Terry doctrine
and, indeed, the fundamental guarantees of the Fourth
Amendment.
ii. The Terry Doctrine’s Criminality
Predicate
First, as is manifest from its very phrasing, the
Robinson court’s analysis of the basis for a Terry stop
overlooks the initial and essential prerequisite that
justifies the seizure. Prior to the acquisition of any evidence arising from an investigative detention, the seizure of the person must be “justified at its inception.”
Terry, 392 U.S. at 20. The Terry Court was careful to
maintain the distinctions between, and the constitutional significance of, the separate events of the “stop,”
“arrest,” or “seizure” of the person and the “frisk” or
“search” of that person, stressing that the analysis cannot be permitted to “isolate from constitutional scrutiny the initial stages of the contact between the
policeman and the citizen.” Id. at 17. The Terry decision
introduced the now-familiar “reasonable suspicion”
standard, allowing a police officer to stop an individual
based upon “specific and articulable facts” and “rational inferences from those facts” that warrant a belief that the individual is involved in criminal activity.

A-29
Id. at 21. Terry further allows a limited search for
weapons where “an officer is justified in believing that
the individual whose suspicious behavior he is investigating at close range is armed and presently dangerous to the officer or to others.” Id. at 24.
Concurring in Terry to “fill in a few gaps” in the
Court’s opinion, Justice Harlan stressed that, “[i]n the
first place, if the frisk is justified in order to protect the
officer during an encounter with a citizen, the officer
must first have constitutional grounds to insist on an
encounter, to make a forcible stop.” Id. at 31-32 (Harlan, J., concurring). Justice Harlan sought to “make it
perfectly clear that the right to frisk in this case depends upon the reasonableness of a forcible stop to investigate a suspected crime.” Id. at 33.
Although the Terry decision focused primarily
upon the legality of the “frisk” rather than the “stop,”
the United States Supreme Court subsequently has
made “perfectly clear,” id., that Justice Harlan correctly articulated the law of investigative detentions.
See, e.g., Cortez, 449 U.S. at 417 (“An investigatory stop
must be justified by some objective manifestation that
the person stopped is, or is about to be, engaged in
criminal activity.”). More recently, in Arizona v. Johnson, the Court articulated the distinct standards for a
“stop” and a “frisk” with unmistakable clarity:
The [Terry] Court upheld “stop and frisk” as
constitutionally permissible if two conditions
are met. First, the investigatory stop must be
lawful. That requirement is met in an on-thestreet encounter, Terry determined, when the

A-30
police officer reasonably suspects that the person apprehended is committing or has committed a criminal offense. Second, to proceed
from a stop to a frisk, the police officer must
reasonably suspect that the person stopped is
armed and dangerous.
Johnson, 555 U.S. at 326-27 (emphasis added).
The Superior Court’s holding in Robinson clearly
subverts this fundamental principle. Rather than requiring reasonable suspicion of criminal activity to
justify the initial “stop,” the Robinson rule conflated
that necessary antecedent with the justification for
the “frisk.” The court reasoned that possession of a
concealed firearm in public “is sufficient to create a
reasonable suspicion that the individual may be dangerous,” which, in turn, the court concluded, allows an
officer to “briefly detain him in order to investigate
whether the person is properly licensed.” Robinson,
600 A.2d at 959 (emphasis added). However, even
presuming dangerousness, “dangerous” is not synonymous with “criminal.” As set forth above, a reasonable
belief that a suspect is armed and dangerous allows for
a limited search for weapons only after the police officer ascertains specific and articulable facts to support
a finding of reasonable suspicion that criminal activity
is afoot, so as to justify the intrusion of an investigative
detention in the first instance. Mere “dangerousness”
is simply an insufficient basis upon which to conduct a
Terry stop. This was precisely Justice Harlan’s point in
Terry, and it is a clear line that has been drawn
throughout the Court’s subsequent decisions.

A-31
The Robinson rule purports to deem constitutional
the seizure of persons upon a basis manifestly inconsistent with the Fourth Amendment jurisprudence
that has governed interactions between citizens and
law enforcement for five decades. However, although
the conflation of dangerousness with criminality is a
palpable flaw in the Robinson rule, its effect would be
the same if, for some other reason, a police officer is
entitled to infer that an individual carrying a concealed firearm is engaged in some type of unlawful conduct, such that an investigative detention would be
“justified at its inception.” Terry, 392 U.S. at 20. Some
courts have so held. Because the essence of the Robinson rule is that possession of a concealed firearm establishes a lawful basis for an investigative detention,
we now evaluate this proposition, and the problematic
consequences that follow.
iii. The Terry Doctrine and the Carry of
Firearms
We are, of course, not the first Court to address the
Fourth Amendment ramifications of criminal laws relating to the carrying of firearms. We stress, however,
that our present analysis is confined to the antecedent
justification for a “stop,” and we accordingly offer no
opinion as to whether a police officer who has effectuated a lawful investigative detention may treat the
suspect’s possession of a firearm as per se authorization to “frisk” the detainee. Accordingly, decisions addressing that separate question, and the consideration
of whether an “armed” individual is automatically

A-32
“dangerous” for purposes of a Terry frisk, see, e.g.,
United States v. Robinson, 846 F.3d 694 (4th Cir. 2017)
(en banc), have no relevance to this appeal. As discussed throughout this Opinion, these inquires are distinct.12
The Supreme Court of the United States has declined to recognize a “firearm exception” to the requirements of Terry. See Florida v. J.L., 529 U.S. 266, 272
(2000) (“A second major argument advanced by Florida
and the United States as amicus is, in essence, that the
standard Terry analysis should be modified to license
a ‘firearm exception.’ . . . We decline to adopt this position.”). However, as in Lagana, Hawkins, and Jackson,
the Court’s decision in J.L. dealt with an anonymous
tip, and the “firearm exception” that the Court rejected
was essentially the same proposition that this Court
rejected in Jackson—that “a tip alleging an illegal gun
would justify a stop and frisk even if the accusation
would fail standard pre-search reliability testing.” Id.
That is, the Court’s rejection of the proposition was
grounded upon the reliability inquiries attending
anonymous tips, not the distinct question of whether
the mere possession of a firearm, however discerned,
may establish a per se basis for an investigative detention. Accordingly, as with Jackson, we will not
treat the J.L. Court’s rejection of the proposed “firearm
12

See generally J. Richard Broughton, Danger at the Intersection of Second and Fourth, 54 IDAHO L. REV. 379 (2018) (hereinafter, “Broughton”) (discussing recent case law addressing
firearms and the Terry doctrine, with particular emphasis on the
justification for a frisk).

A-33
exception” as alone dispositive of the Robinson rule’s
validity.
Numerous state courts and federal Courts of Appeals, however, have considered Fourth Amendment
seizures based solely upon the possession of firearms,
with a particular eye toward the lawfulness of such activity under the statutes of the subject jurisdiction. In
United States v. Black, 707 F.3d 531 (4th Cir. 2013), the
Fourth Circuit reasoned:
Being a felon in possession of a firearm is not
the default status. More importantly, where a
state permits individuals to openly carry firearms, the exercise of this right, without more,
cannot justify an investigatory detention. Permitting such a justification would eviscerate
Fourth Amendment protections for lawfully
armed individuals in those states. United
States v. King, 990 F.2d 1552, 1559 (10th Cir.
1993).
Id. at 540. The Tenth Circuit’s decision in King, which
the Black court cited, similarly held that the interest
in the safety of police officers and bystanders did not
justify the detention of a motorist immediately upon
observation of a firearm, reasoning that “[i]n a state
such as New Mexico, which permits persons to lawfully
carry firearms, the government’s argument would effectively eliminate Fourth Amendment protections for
lawfully armed persons.” King, 990 F.2d at 1559.
Likewise in Northrup v. City of Toledo Police Dep’t,
785 F.3d 1128 (6th Cir. 2015), the Sixth Circuit found

A-34
unlawful the detention of an individual based upon his
open carrying of a firearm, reasoning in part:
While open-carry laws may put police officers
. . . in awkward situations from time to time,
the Ohio legislature has decided its citizens
may be entrusted with firearms on public
streets. The Toledo Police Department has no
authority to disregard this decision—not to
mention the protections of the Fourth Amendment—by detaining every “gunman” who lawfully possesses a firearm.
Id. at 1133 (citation omitted).
In a case arising in the Virgin Islands, where the
possession of a firearm in public was lawful, the Third
Circuit rejected an assertion that such possession
alone gave rise to reasonable suspicion of criminality.
United States v. Ubiles, 224 F.3d 213 (3d Cir. 2000). An
anonymous tip that Ubiles possessed a firearm at a
public event, the court found, although accurate, provided “no reason to believe that Ubiles was engaged in
or planning or preparing to engage in illegal activity
due to his possession of a gun.” Id. at 218. The Ubiles
court provided an analogy to the lawful possession of a
different object—a wallet, which may or may not contain unlawful counterfeit bills. Id. The mere possibility
that a wallet could contain counterfeit bills, the Ubiles
court reasoned, does not entitle a police officer to infer
their presence in the absence of reasonable, articulable
suspicion.

A-35
Courts of some jurisdictions have analyzed the
question based upon whether, under applicable statutes, nonlicensure is an element of the crime of carrying a firearm without a license—in which case a Terry
stop for mere possession is unlawful—or whether licensure serves as an affirmative defense to the criminal charge—in which case a Terry stop is lawful. See
generally Barondes, supra n.7, at 326-41. In State v.
Timberlake, 744 N.W.2d 390 (Minn. 2008), the Minnesota Supreme Court reasoned that, under Minnesota’s
statute, “the nonexistence of a permit is not an element
of the crime,” and “the permit holder has the obligation
to provide evidence of his permit as a way to avoid
criminal responsibility.” Id. at 396. Accordingly, the
Court deemed it lawful for a police officer to seize an
individual in Minnesota based solely upon a reliable
report of his possession of a firearm in a vehicle. Id. at
397. Applying this approach in United States v. Gatlin,
613 F.3d 374 (3d Cir. 2010), the Third Circuit distinguished its decision in Ubiles and reasoned that, under
Delaware law, because the existence of a license to
carry a firearm is a defense to the crime of carrying a
concealed firearm, an investigative detention based
solely upon the possession of a concealed firearm is
permissible. Id. at 378 (“[U]nder Delaware law, carrying a concealed handgun is a crime to which possessing
a valid license is an affirmative defense, and an officer
can presume a subject’s possession is not lawful until
proven otherwise.”).13
13

Although we treat decisions of the Third Circuit as persuasive authority on questions of federal constitutional law, we are

A-36
The Supreme Court of the United States has not
addressed whether this element-or-defense approach
to concealed carry licenses is acceptable under Fourth
Amendment principles. Although by no means intended as an exhaustive survey of the decisions applying this litmus, this brief discussion is amply sufficient
for this Court to conclude that we do not find the approach persuasive. To characterize an investigative
detention as lawful solely because licensure is an affirmative defense under the applicable statute, rather
than nonlicensure serving as an element of the crime,
is to obscure the fact that licensed individuals who
engage in the conduct for which they have obtained licenses are, at bottom, in compliance with the requirements of the law. Accordingly, notwithstanding how
such a test may apply to Pennsylvania’s statutes, we
find the element-or-defense approach “ultimately untenable, because it would allow a manifestly unacceptable range of ordinary activity to, by itself, justify
Terry stops.” Barondes, supra n.7, at 346.
We find much greater appeal in decisions of our
sister states such as Commonwealth v. Couture, 552
not bound thereby. See Stone Crushed P’ship v. Kassab Archbold
Jackson & O’Brien, 908 A.2d 875, 883 n.10 (Pa. 2006). The Supreme Court of the United States remains “the ultimate authority” in matters of federal constitutional jurisprudence. Purple
Orchid, Inc. v. Pa. State Police, 813 A.2d 801, 806 (Pa. 2002); see
also Commonwealth v. Cross, 726 A.2d 333, 338 n.4 (“This [C]ourt
is not bound by a lower federal court’s interpretation of United
States Supreme Court decisions, but is bound only by the United
States Supreme Court.”). For the reasons discussed throughout
this Opinion, and addressed in further detail in Part II(C)(vi),
infra, we decline to follow the Third Circuit’s approach in Gatlin.

A-37
N.E.2d 538 (Mass. 1990), and Pinner v. State, 74 N.E.3d
226 (Ind. 2017), which apply a more straightforward
analysis of Fourth Amendment principles. Even
though Massachusetts was a “defense” state and not
an “element” state, the Supreme Judicial Court of Massachusetts in Couture held that the “mere possession
of a handgun was not sufficient to give rise to a reasonable suspicion that the defendant was illegally carrying that gun, and the stop was therefore improper
under Fourth Amendment principles.” Couture, 552
N.E.2d at 541. Recently, in Pinner, the Supreme Court
of Indiana reached an identical conclusion with nary a
mention of the element-or-defense approach. See Pinner, 74 N.E.3d at 230-34.
Our analysis of the question at bar is guided by
fundamental Fourth Amendment principles. We find
no justification for the notion that a police officer may
infer criminal activity merely from an individual’s possession of a concealed firearm in public. As set forth,
above, it is not a criminal offense for a license holder,
such as Hicks, to carry a concealed firearm in public.14
14

Regarding the legality of concealed carry within a given
jurisdiction, as it relates to the distinction between stops and
frisks under the Terry doctrine, Broughton observes:
Gun rights law . . . can still receive meaningful protection under Terry doctrine, but most of its work is performed at the initial stage of the encounter. The
liberalization of gun rights can function as a limit on
the scope of the initial stop, as in cases like Northrup
or Black. But once a legally sufficient justification has
been established for the stop—reasonable suspicion
that the suspect has committed a crime or that criminal activity is afoot—the fact that the jurisdiction

A-38
Although the carrying of a concealed firearm is unlawful for a person statutorily prohibited from firearm
ownership or for a person not licensed to do so, see 18
Pa.C.S. §§ 6105-06, there is no way to ascertain an individual’s licensing status, or status as a prohibited
person, merely by his outward appearance. As a matter
of law and common sense, a police officer observing an
unknown individual can no more identify whether that
individual has a license in his wallet than discern
whether he is a criminal. Unless a police officer has
prior knowledge that a specific individual is not permitted to carry a concealed firearm, and absent articulable facts supporting reasonable suspicion that a
firearm is being used or intended to be used in a
liberally permits gun possession and public carry has
less force. The liberalization of gun law, whether via
the Second Amendment, state legislation, or state constitutional law, relates to Terry’s criminality predicate
because the law enforcement justification for the stop
is drawn from an objective indicator—whether something is legal or illegal, which is (or ought to be) knowable to the investigating officer. Of course, the officer
need only be reasonably suspicious of criminality, not
certain. But still, his judgment about whether to conduct the stop will be made based on his understanding
of what the law objectively requires or permits. The decision whether to frisk—and the dangerousness determination that accompanies it—is different. It requires
reasoned judgments based on factors that may arise
during the stop or that are based on the officer’s experience, judgments that often must be made “even
quicker” and “on less information” than is available
with respect to the stop.
Broughton, supra n.12, at 404-05 (emphasis and footnotes omitted).

A-39
criminal manner, there simply is no justification for
the conclusion that the mere possession of a firearm,
where it lawfully may be carried, is alone suggestive of
criminal activity.
Responding to the Commonwealth’s principal arguments to the contrary requires us to examine additional deficiencies in the Robinson rule, which further
highlight the dangers inherent in applying per se
rules—generally disfavored under the Fourth Amendment, see United States v. Drayton, 536 U.S. 194, 201
(2002)—to validate seizures. The Robinson rule improperly dispenses with the requirement of individualized suspicion and, in so doing, misapplies the
overarching totality of the circumstances test.
iv. Operation as a Per Se Rule
The Fourth Amendment protects a fundamentally
individual right—the “right of each individual to be let
alone.” Tehan v. U.S. ex rel. Shott, 382 U.S. 406, 416
(1966).15 Ordinarily, a governmental intrusion upon
that individual right requires an individualized justification; otherwise, a search or seizure is constitutionally unreasonable. See City of Indianapolis v. Edmond,
15

See Olmstead v. United States, 277 U.S. 438, 478 (1928)
(Brandeis, J., dissenting) (noting that the framers of the Constitution “conferred, as against the government, the right to be let
alone—the most comprehensive of rights and the right most valued by civilized men”); see generally Samuel D. Warren and Louis
D. Brandeis, The Right to Privacy, 4 HARV. L. REV. 193 (1890) (discussing the “right to be let alone” as a foundational principle of
American jurisprudence).

A-40
531 U.S. 32, 37 (2000) (“A search or seizure is ordinarily
unreasonable in the absence of individualized suspicion of wrongdoing.”).
Notably, the type of seizure contemplated here
does not implicate a scenario involving “special needs,
beyond the normal need for law enforcement,” Edmond, 531 U.S. at 37, such as would dispense with the
requirement of individualized suspicion. Although a
general requirement in the Fourth Amendment context, the Supreme Court of the United States has held
that individualized suspicion is not “an ‘irreducible’
component of reasonableness” in all situations. Id.
(quoting Martinez-Fuerte, 428 U.S. at 561). However,
the Court has recognized “only limited circumstances
in which the usual rule does not apply.” Id. This is not
one of those circumstances. Pursuant to Edmond, the
Fourth Amendment will not tolerate the abandonment
of individualized suspicion for searches primarily designed to “uncover evidence of ordinary criminal
wrongdoing.” Id. at 42. There has been no suggestion
that the investigation of individuals carrying concealed firearms constitutes a special need beyond the
“general interest in crime control.” Id. at 41 (quoting
Delaware v. Prouse, 440 U.S. 648, 659 n.18 (1979)). Accordingly, the “usual rule,” as Edmond called it, remains in full force herein, and individualized suspicion
of wrongdoing remains essential under the Fourth
Amendment.
The individualized nature of the justification for a
seizure is central to the Terry doctrine, inherent in the
requirement that an investigative detention must be

A-41
premised upon specific and articulable facts particular
to the detained individual. Indeed, the Terry Court
stressed that the “demand for specificity in the information upon which police action is predicated is the
central teaching of this Court’s Fourth Amendment jurisprudence.” Terry, 392 U.S. at 21 n.18; see MartinezFuerte, 428 U.S. at 560-61 (citing the quoted passage of
Terry for the proposition that “some quantum of individualized suspicion is usually a prerequisite to a constitutional search or seizure”).
Naturally, judicial assessment of the justification
for a seizure must be conducted under the “totality of
the circumstances,” which includes consideration of
all of the facts and circumstances, including rational
inferences derived from those facts, that bear upon a
reasonable officer’s belief as to whether criminal activity may be afoot. See, e.g., United States v. Arvizu, 534
U.S. 266, 273-74 (2002). Nonetheless, in general, some
particularized basis for believing that an individual is
engaged in criminal conduct remains a necessary antecedent to an investigative detention. In Cortez, the
Court addressed the standards pursuant to which an
individual’s conduct may be found sufficiently suspicious to justify a stop under the totality of the circumstances:
Courts have used a variety of terms to capture
the elusive concept of what cause is sufficient
to authorize police to stop a person. Terms like
“articulable reasons” and “founded suspicion”
are not self-defining; they fall short of providing clear guidance dispositive of the myriad

A-42
factual situations that arise. But the essence
of all that has been written is that the totality
of the circumstances—the whole picture—
must be taken into account. Based upon that
whole picture the detaining officers must have
a particularized and objective basis for suspecting the particular person stopped of criminal activity.
Cortez, 449 U.S. at 417-18 (emphasis added).
The Robinson rule neglects this principle. The error lies not in any assertion that the possession of a
firearm can never be suspicious—it certainly can be. A
police officer is entitled to view individuals’ conduct in
light of the “probabilities” that criminal activity may
be afoot, and indisputably may draw “certain common
sense conclusions about human behavior.” Id. at 418.
Relevant contextual considerations may include factors such as a suspect’s presence in a high crime area.
See, e.g., Adams v. Williams, 407 U.S. 143, 147-48
(1972), but see Wardlow, 528 U.S. at 124 (“An individual’s presence in an area of expected criminal activity,
standing alone, is not enough to support a reasonable,
particularized suspicion that the person is committing
a crime.”).
The deficiency in the Robinson rule is that, rather
than requiring a “particularized and objective basis”
for suspecting an individual, Cortez, 449 U.S. at 417,
the Superior Court has deemed the conduct of the individual to be functionally irrelevant to the analysis.
Such is a danger of per se rules, pursuant to which
the totality of the circumstances inquiry—the whole

A-43
picture—is subordinated to the identification of one,
single fact. This is distinctly problematic where, as
discussed above, the single fact isolated from the remainder of the circumstances is an activity that is
indistinguishable from lawful conduct. Under the
Robinson rule, consideration of the individual has
been substituted for categorical treatment of a rather
large class—all persons carrying concealed firearms,
whether they are licensed to do so or not. Robinson
would subject every member of this class to seizure by
law enforcement agents, with no further consideration
of “the whole picture” of the circumstances with respect to a particular individual’s conduct. In failing to
demand “specificity in the information upon which police action is predicated,” the Robinson rule thus confounds “the central teaching of . . . Fourth Amendment
jurisprudence.” Terry, 392 U.S. at 21 n.18.
The Commonwealth’s arguments fare no better.
The Commonwealth places great emphasis upon the
notions that “there could . . . be circumstances in which
wholly lawful conduct might justify the suspicion that
criminal activity was afoot,” Reid, 448 U.S. at 441 (per
curiam), and that reasonable suspicion “does not deal
with hard certainties, but with probabilities.” Cortez,
449 U.S. at 418. See Brief for Commonwealth at 5-6, 1112. Although these propositions surely are correct,
they are inadequate to justify the seizures contemplated by the Robinson rule, and fail to account for the
gravity of the authority that the Commonwealth
claims for itself.

A-44
The probabilistic nature of the inquiry, as discussed in Cortez, merely guides the totality of the circumstances test, which, as noted above, nonetheless
requires some “particularized and objective basis for
suspecting the particular person stopped of criminal
activity.” Cortez, 449 U.S. at 417-18. An officer certainly
is entitled to consider “probabilities” and to employ
“common sense,” but, quite fundamentally, “the whole
picture” of the circumstances “must raise a suspicion
that the particular individual being stopped is engaged
in wrongdoing.” Id. at 418. As for the Commonwealth’s
contention regarding the potentially suspicious nature
of lawful conduct, a brief review of Reid—which the
Commonwealth cites for the proposition—reveals the
flaws in Commonwealth’s position, while simultaneously illustrating the correct manner in which to weigh
probabilities, innocent conduct, and common sense, under the “whole picture” of the totality of the circumstances.
In Reid, an agent of the federal Drug Enforcement
Agency detained Reid and his companion at an airport,
based upon his belief that Reid fit a “drug courier profile.” Reid, 448 U.S. at 440 (per curiam). The lower court
focused upon the fact that Reid and his companion arrived from Fort Lauderdale during early morning
hours, had no luggage other than shoulder bags, and
that Reid occasionally glanced at his companion while,
in the opinion of the agent, attempting to conceal the
fact that they were traveling together. The Supreme
Court of the United States analyzed this evidence purportedly giving rise to reasonable suspicion as follows:

A-45
We conclude that the agent could not as a
matter of law, have reasonably suspected the
petitioner of criminal activity on the basis of
these observed circumstances. Of the evidence
relied on, only the fact that the petitioner preceded another person and occasionally looked
backward at him as they proceeded through
the concourse relates to their particular conduct. The other circumstances describe a very
large category of presumably innocent travelers, who would be subject to virtually random
seizures were the Court to conclude that as little foundation as there was in this case could
justify a seizure. Nor can we agree, on this record, that the manner in which the petitioner
and his companion walked through the airport reasonably could have led the agent to
suspect them of wrongdoing. Although there
could, of course, be circumstances in which
wholly lawful conduct might justify the suspicion that criminal activity was afoot, see
Terry, 392 U.S. at 27-28, this is not such a case.
The agent’s belief that the petitioner and his
companion were attempting to conceal the
fact that they were traveling together, a belief
that was more an “inchoate and unparticularized suspicion or ‘hunch,’ ” Id. at 27, than a
fair inference in the light of his experience, is
simply too slender a reed to support the seizure in this case.
Id. at 441 (per curiam) (citations modified; emphasis
added).
Nothing about this analysis provides even a slender reed to support the Robinson rule. Although wholly

A-46
lawful conduct certainly may give rise to reasonable
suspicion of criminal conduct under some circumstances, and although reasonable suspicion “need not
rule out the possibility of innocent conduct,” Arvizu,
534 U.S. at 277, the Terry doctrine unequivocally requires something suggestive of criminal activity before
an investigative detention may occur. The Commonwealth cannot simply point to conduct in which hundreds of thousands of citizens lawfully may engage,
then deem that conduct to be presumptively criminal.
This would, as Reid stated, “describe a very large category of presumably innocent travelers,” many of whom
surely would be surprised to learn that the very conduct for which they have obtained a license nonetheless served as the sole predicate for the deprivation of
their liberty. Reid, 448 U.S. at 441. The instant case
demonstrates precisely the dangers inherent in such
an approach: Hicks was, like many other Pennsylvania
citizens, licensed to engage in the activity for which he
was seized. We must reject the Commonwealth’s assertion that a police officer is authorized, let alone “duty
bound,” Brief for Commonwealth at 11, to seize and
question any and every one of those people.
v. Delaware v. Prouse
Finally, the Robinson rule cannot be salvaged by
any attempt to minimize the authority contemplated
by characterizing the seizure as merely a “simple request” to check a license. Brief for Commonwealth at 9.
A seizure is a seizure. That the purported basis for the
seizure is simply to “check” whether the suspect is

A-47
committing a crime does not diminish the constitutional significance of the encounter. It does not render
it any less of a seizure; it simply renders it a seizure in
the absence a particularized basis for a finding of reasonable, articulable suspicion of criminal activity.
In this regard, we find significant relevance in the
United States Supreme Court’s decision in Delaware v.
Prouse, 440 U.S. 648 (1979). Like the carrying of a firearm without a license, it also is unlawful to drive an
automobile without a license. In Prouse, the Supreme
Court of the United States held that, absent reasonable, articulable suspicion that a particular motorist is
unlicensed or that a particular vehicle is unregistered,
and without any other independent basis to seize a vehicle or its occupants, “stopping an automobile and detaining the driver in order to check his driver’s license
and the registration of the automobile are unreasonable under the Fourth Amendment.” Id. at 663.
Unlike a border checkpoint such as those approved by the Court’s decision in Martinez-Fuerte, supra, the Prouse Court determined that the “spot check”
of a particular driver must be justified by individualized suspicion. This was so despite the States’ “vital
interest in ensuring that only those qualified to do so
are permitted to operate motor vehicles, that these vehicles are fit for safe operation, and hence that licensing, registration, and vehicle inspection requirements
are being observed.” Prouse, 440 U.S. at 658. Notwithstanding the extensive governmental regulation of automobiles, and despite the important governmental
interest in such regulation, the Court found those

A-48
“important ends” insufficient to “justify the intrusion
upon Fourth Amendment interests which such stops
entail.” Id. at 659. The Court explained:
The marginal contribution to roadway safety
possibly resulting from a system of spot
checks cannot justify subjecting every occupant of every vehicle on the roads to a seizure—limited in magnitude compared to other
intrusions but nonetheless constitutionally
cognizable—at the unbridled discretion of law
enforcement officials. To insist neither upon
an appropriate factual basis for suspicion directed at a particular automobile nor upon
some other substantial and objective standard or rule to govern the exercise of discretion
“would invite intrusions upon constitutionally
guaranteed rights based on nothing more substantial than inarticulate hunches. . . .” Terry,
392 U.S. at 22.
Id. at 661 (citation modified). The Court characterized
the authority contemplated as the “kind of standardless and unconstrained discretion” that represents
precisely “the evil the Court has discerned when in
previous cases it has insisted that the discretion of the
official in the field be circumscribed, at least to some
extent.” Id. The “grave danger” of the abuse of that discretion, the Court emphasized, “does not disappear
simply because the automobile is subject to state regulation,” nor does “an individual operating or traveling
in an automobile . . . lose all reasonable expectation of
privacy simply because the automobile and its use are
subject to government regulation.” Id. at 662.

A-49
Invoking Terry, the Prouse Court concluded:
Were the individual subject to unfettered governmental intrusion every time he entered
an automobile, the security guaranteed by
the Fourth Amendment would be seriously
circumscribed. As Terry v. Ohio, supra, recognized, people are not shorn of all Fourth
Amendment protection when they step from
their homes onto the public sidewalks. Nor
are they shorn of those interests when they
step from the sidewalks into their automobiles.
Id. at 662-63.
Nor are people shorn of all Fourth Amendment
protection when they carry firearms in compliance
with the laws of this Commonwealth. Firearms, too,
are subject to extensive governmental regulation, at
both the state and federal level. Nonetheless, the possession or carrying of firearms, although unlawful for
some, cannot strip away protections of the Fourth
Amendment for all of the rest.
Prouse does more than illustrate the retention of
Fourth Amendment rights despite participation in a
licensed and government-regulated activity. Prouse
highlights a first principle that lies at the heart of
the Fourth Amendment—that the government may
not target and seize specific individuals without any
particular suspicion of wrongdoing, then force them to
prove that they are not committing crimes. To hold
otherwise would be anathema to individual liberty,

A-50
and contrary to “the central teaching of . . . Fourth
Amendment jurisprudence.” Terry, 392 U.S. at 21 n.18.
vi. The Perspective of the Concurrence16
The Concurrence rejects this analysis, and would
adopt the element-or-defense test referenced above,
under which the seizure of an individual for engaging
in licensed conduct is deemed permissible if licensure
serves as an affirmative defense to a crime, as opposed
to nonlicensure serving as an element of the offense.
See supra at 26-27. The Concurrence opines that our
treatment of this test is unduly dismissive given its
prevalence in other jurisdictions, that our rejection
thereof fails to afford sufficient deference to the manner in which the legislature chooses to define crimes,
and that our reasoning may have consequences for future investigations of other licensed conduct. These are
fair observations. However, the element-or-defense test
comes with its own untenable consequences. Chief
among these is the fact that such a test transfers to the
legislature the power to erase the protections of the
Fourth Amendment for any individual who seeks to
comply with the legislature’s own licensing requirements.
To apprehend the constitutional infirmity of the
element-or-defense test, one need look no further than
Prouse. In addressing whether the Fourth Amendment
16

In this section, usages of the “Concurrence” refer to Justice
Dougherty’s Concurring Opinion, and not to Justice Baer’s separate writing.

A-51
tolerates “spot checks” of motorists’ driver’s licenses,
the Prouse Court made no inquiry into whether possession of a driver’s license is an affirmative defense in
the subject jurisdiction, or whether nonlicensure is an
element of the crime of driving without a license. The
Court’s concern in Prouse was with “unfettered governmental intrusion” upon the rights of the individual
solely at the “unconstrained discretion” of a single law
enforcement officer in the field. Prouse, 440 U.S. at 661,
663. This concern remains starkly unaddressed by
the element-or-defense test, which purports to bestow
upon the legislature the power to authorize precisely
this manner of intrusion upon the very individuals
who have sought to bring themselves into compliance
with the law by obtaining licenses.
Recognizing that Prouse casts considerable doubt
upon the element-or-defense test, the Concurrence offers a distinction suggested by the Tenth Circuit in
United States v. Rodriguez, 739 F.3d 481 (10th Cir.
2013). See Concurring Opinion (Dougherty, J.) at 8-9.
However, Rodriguez itself plainly recognized the tension between Prouse and the element-or-defense test,
opining that, “[t]o be sure, any construction of a motor
vehicle statute permitting such random stops, however
the statute is worded, would be unconstitutional” under Prouse. Rodriguez, 739 F.3d at 490. The Rodriguez
court forthrightly acknowledged that, under Prouse, it
is immaterial whether nonlicensure is an element of
the crime or licensure is an affirmative defense—it remains a violation of the Fourth Amendment to detain

A-52
a motorist solely to ascertain the motorist’s licensing
status.
In order to deem constitutional the seizure at issue, the Rodriguez court sought to distinguish the underlying activities subject to licensing, opining that,
unlike driving a car, “concealing a handgun is a clandestine act.” Id. Further contrasting the Prouse Court’s
conclusion that random stops of motorists would have
an impact upon public safety that is “marginal at best,”
the Rodriguez court opined that, due to the danger
posed by concealed weapons, it could “safely assume
the contribution to public safety made by the stop of an
individual known to be carrying a concealed handgun
will hardly be insignificant.” Id.
With due respect to the Tenth Circuit, Rodriguez’
distinction is unpersuasive. The “clandestine” nature
of carrying a concealed firearm is immaterial. Carrying
in such a “clandestine” manner is precisely the conduct
that the license authorizes. An individual licensed to
carry a concealed firearm is permitted to do so every
bit as much as a holder of a driver’s license is permitted to operate a motor vehicle.
As for the contribution to public safety ostensibly
gained by limitless seizures of armed citizens, it bears
mention that the Prouse Court was quite aware of the
dangers posed by the operation of motor vehicles, see
Prouse, 440 U.S. at 658, yet found no justification for
the suspension of Fourth Amendment rights for all motorists. The High Court could not “conceive of any legitimate basis upon which a patrolman could decide

A-53
that stopping a particular driver for a spot check would
be more productive than stopping any other driver,”
reasoning that such seizures embodied the “kind of
standardless and unconstrained discretion” that is
precisely “the evil the Court has discerned when in previous cases it has insisted that the discretion of the official in the field be circumscribed, at least to some
extent.” Id. at 661. The Rodriguez panel’s conclusion
that it could “safely assume” the contrary in this context is speculation without any proferred empirical
support, amounting to little more than an assertion
that detaining armed individuals to check their licenses is desirable, whereas detaining motorists to
check their licenses is undesirable—indeed, unconstitutional.
As the Concurrence emphasizes, it is certainly the
legislature’s prerogative to define the elements of
crimes and to set forth affirmative defenses. However,
the constitutionality of enforcement tactics is a matter
of judicial concern. The legislature is further entitled
to prescribe the requirements and procedures necessary to obtain a license for otherwise-prohibited conduct. However, the issuance of a license cannot entail
the deprivation of constitutional rights. Under the element-or-defense test, the legislature is imbued with
the power to limit the scope of Fourth Amendment protection.17 The legislature cannot lay such a trap for the
17

The Concurrence characterizes this concern as “an unfounded belief the legislature may seek to circumvent the Fourth
Amendment in the future.” Concurring Opinion (Dougherty, J.)
at 14 n.5. This is incorrect. The problem is not the unknown

A-54
unwitting licensee, who obtains a license precisely for
the purpose of achieving good-faith compliance with
the law, yet who may be subject to unlimited seizures
by law enforcement agents for the very conduct that
the license permits. This is not a matter of deference to
the legislature; this is a matter of freedom from unreasonable seizure under the Fourth Amendment.
The Concurrence also raises the specter of future
difficulties with the enforcement of criminal laws, such
as the prohibition upon the possession of marijuana in
light of the recent passage of the Medical Marijuana
Act, 35 P.S. §§ 10231.101-10231.2110. See Concurring
Opinion (Dougherty, J.) at 12 n.4. However, even if our
reasoning herein may reach to such a distinct matter—
which we do not today decide—this is not a compelling
reason to dilute the protections of the Fourth Amendment. Indeed, the element-or-defense test also has consequences beyond the case at bar, and these entail
unacceptable limitations of Fourth Amendment rights.
For instance, the Concurrence relates this Court’s
conclusion in Commonwealth v. Bigelow, 399 A.2d 392
(Pa. 1979), that licensure is an affirmative defense
under 18 Pa.C.S. § 6108, which requires a license for
either open or concealed carry of a firearm within Philadelphia. See 18 Pa.C.S. § 6108(1) (“No person shall
motivations of future legislators. Rather, the constitutional issue
lies in the nature of the Concurrence’s proposed legal standard,
which, with respect to the licensing scheme at issue, would have
the present effect of delegating to the legislature the judicial prerogative to assess the constitutionality of searches and seizures
in particular cases.

A-55
carry a firearm, rifle or shotgun at any time upon the
public streets or upon any public property in a city of
the first class unless . . . such person is licensed to carry
a firearm.) (emphasis added). However, this same statutory formulation applies to the possession of prescription medication. See 35 P.S. § 780-113(a)(16) (defining
as unlawful “[k]nowingly or intentionally possessing
a controlled or counterfeit substance by a person not
registered under this act . . . unless the substance was
obtained directly from, or pursuant to, a valid prescription order or order of a practitioner”) (emphasis added).
The consequence of the element-or-defense approach,
then, is that an individual with a medical condition requiring prescription medication is subject to unlimited
seizures by law enforcement agents upon the mere observation of that person’s medication, or her orange
prescription pill bottle. This unjustly places the onus
upon the citizen to demonstrate that her possession of
the medication is not criminal, reversing the constitutional mandate that the police officer must establish a
valid basis for the intrusion upon her privacy in the
first instance.
The element-or-defense test amounts to a “seize
now and sort it out later” approach. This is antithetical
to the foundational protections of the Fourth Amendment. It casts too wide a net, with no regard for the
number of law-abiding citizens ensnared within. “The
Terry case created an exception to the requirement of
probable cause, an exception whose narrow scope” the
Supreme Court “has been careful to maintain.” Ybarra
v. Illinois, 444 U.S. 85, 93 (1979) (citation and internal

A-56
quotation marks omitted). We maintain the narrow
scope of that exception today. If the consequence of our
decision is that future courts afford meaningful Fourth
Amendment protection to individuals engaged in other
commonly licensed activities, that result is preferable
to our allowance of governmental overreach that undermines the individual freedom that is essential to
our way of life in this constitutional republic.
Our holding is confined to the lawfulness of seizures based solely upon the possession of a concealed
firearm—conduct that is widely licensed and lawfully
practiced by a broad range of people. We do not render
“all element-or-defense distinctions irrelevant for
Fourth Amendment purposes.” Concurring Opinion
(Dougherty, J.) at 14 n.5. We in no way hold that the
Fourth Amendment prohibits the arrest or prosecution
of an individual suspected of a crime for which he may
have a valid affirmative defense of, for instance, duress
or the use of force in self-protection. See generally 18
Pa.C.S. §§ 309, 505. Rather, we merely hold that, with
respect to the conduct at issue—in which hundreds of
thousands of Pennsylvanians are licensed to engage
lawfully, see supra n.8—that conduct alone is an insufficient basis for reasonable suspicion that criminal activity is afoot. We insist only upon articulable grounds
to conclude that the conduct that serves as the basis
for a seizure is actually suspicious in any meaningful
sense of the word.
In this case, as discussed in detail below, a man
stopped at a gas station to fuel his vehicle, greeted an
acquaintance, paid for his gasoline, and then was

A-57
seized at gunpoint by numerous police officers, forcibly
restrained, removed from his vehicle, and handcuffed.
The sole basis for this seizure was his possession of a
concealed firearm in public—a firearm that he was entitled to possess and licensed to carry. The injustice of
this scenario would not be washed away by a mere rearrangement of statutory elements and defenses. The
seizure at issue was not unconstitutional due to the
statutory classification of Hicks’ license; it was unconstitutional because the police officers had no way of determining from Hicks’ conduct or appearance that he
was likely to be unlicensed and therefore engaged in
criminal wrongdoing.
The Fourth Amendment does not tolerate such indiscriminate use of law enforcement power “at the unbridled discretion of police officers.” Prouse, 440 U.S. at
663. “The purpose of the Fourth Amendment is . . . ‘to
prevent arbitrary and oppressive interference by enforcement officials with the privacy and personal security of individuals.’ ” Mendenhall, 446 U.S. at 553-54
(quoting Martinez-Fuerte, 428 U.S. at 554). Our holding serves that purpose. The element-or-defense test
does not. Accordingly, notwithstanding the approach of
some other jurisdictions, we decline to adopt the element-or-defense test as the law of this Commonwealth.
Rather, the test is Terry, as it has been for decades, and
the contours of that test are addressed thoroughly in
this Opinion.

A-58
D. Conclusion
Although our discussion of the arguments and legal
principles has been extensive, the question presented
ultimately involves a straightforward application of
Terry. A police officer in the field naturally relies upon
his or her common sense when assessing criminal activity. When many people are licensed to do something,
and violate no law by doing that thing, common sense
dictates that the police officer cannot assume that any
given person doing it is breaking the law. Absent some
other circumstances giving rise to a suspicion of criminality, a seizure upon that basis alone is unreasonable.
In the United States of America, it is not a trivial
matter to be detained under the color of state authority. Although the “stop and frisk” is a commonplace and
essential law enforcement practice, it nonetheless is a
significant intrusion upon citizen liberty, and it carries
with it as well a risk of danger to both the police officer
and the suspect. As this Court previously has noted:
“Unnecessary police intervention, by definition, produces the possibility of conflict where none need exist.”
Hawkins, 692 A.2d at 1071 (plurality).
A police officer is trained to assess people and situations for danger. An officer responding to a dispatch
such as the one in this case is capable of responding
in a manner not amounting to a seizure by observing
the suspect and the circumstances, by determining
whether anyone appears to be in danger or whether a
crime appears to be occurring, and by interviewing

A-59
witnesses about any crimes that may have occurred before the officer’s arrival. See Jackson, 698 A.2d at 575
(reasoning that, where the available information does
not give rise to reasonable suspicion, “the police must
investigate further by means not constituting a search
and seizure.”). Such activities preserve peace, law, and
order, and do so without depriving anyone of his freedom unless there is cause to do so.
This is not a “special needs” situation, or a seizure
“carried out pursuant to a plan embodying explicit,
neutral limitations on the conduct of individual officers” so as to “assure that an individual’s reasonable
expectation of privacy is not subject to arbitrary invasions solely at the unfettered discretion of officers in
the field.” Brown, 443 U.S. at 51. This is the targeting
of an individual, forcibly seizing and disarming him at
gunpoint, removing him from a car and handcuffing
him, solely to ascertain whether he might be committing a crime.
Undoubtedly aware of the vast number of citizens
licensed to carry firearms, police officers surely will not
find anything otherwise suspicious about many of the
particular individuals who fall within the Robinson
rule’s sweep. But with no other criterion beyond the
fact of an individual’s possession of a concealed firearm
necessary to justify a seizure, the Robinson rule allows
a police officer to base the decision to detain a particular individual upon an “inchoate and unparticularized
suspicion or ‘hunch’ ” that the individual is unlicensed
and therefore engaged in wrongdoing. Terry, 392 U.S.
at 27. This reflects precisely the “kind of standardless

A-60
and unconstrained discretion,” Prouse, 440 U.S. at 661,
that lends itself to “arbitrary invasions solely at the
unfettered discretion of officers in the field.” Brown,
443 U.S. at 51. The result is an unjustifiable risk of
disparate enforcement on the basis of an individual’s
appearance alone, while the rights of others go unquestioned.
Crime and violence are ever-present threats in society, and it can be tempting to look to the government
to provide protection from “dangerous” people with
constant vigilance. However, the protections of the
Fourth Amendment remain an essential bulwark
against the overreaches and abuses of governmental
authority over all individuals. Notwithstanding the
dangers posed by the few, we must remain wary of
the diminution of the core liberties that define our republic, even when the curtailment of individual liberty appears to serve an interest as paramount as
public safety. “Experience should teach us to be most
on our guard to protect liberty when the government’s
purposes are beneficent. Men born to freedom are naturally alert to repel invasion of their liberty by evilminded rulers. The greatest dangers to liberty lurk in
insidious encroachment by men of zeal, well-meaning
but without understanding.” Olmstead v. United
States, 277 U.S. 438, 479 (1928) (Brandeis, J., dissenting).
In light of all of the foregoing, it has become clear
that the Superior Court patently has erred in concluding that the “possession of a concealed firearm by an
individual in public is sufficient to create a reasonable

A-61
suspicion that the individual may be dangerous, such
that an officer can approach the individual and briefly
detain him in order to investigate whether the person
is properly licensed.” Robinson, 600 A.2d at 959. This
holding facially contravenes established law as set
forth in Terry and its progeny, demands no suspicion of
criminal activity—let alone individualized suspicion—
and countenances a sweeping and unjustified expansion of the authority of law enforcement to seize persons upon the basis of conduct that, standing alone,
an officer cannot reasonably suspect to be criminal.
Indeed, the Robinson rule does not contemplate a
Terry stop at all, but rather a wholly distinct species of
police intrusion, untethered from the law upon which
it ostensibly is premised, and ultimately lacking any
justification in the basic principles of the Fourth
Amendment.
We accordingly overrule Robinson and those decisions of our Superior Court that have reaffirmed and
applied its holding.
III. Disposition of the Instant Case
Notwithstanding the lower courts’ application of
an erroneous conclusion of law, there remains a question of whether Hicks’ seizure nonetheless was supported by reasonable, articulable suspicion of criminal
activity, such as would render the investigative detention lawful.
We reiterate that our standard and scope of review
require us to assess whether the suppression court’s

A-62
findings of fact find support in the record, and, because
it was Hicks who appealed the suppression court’s order, we consider all of the Commonwealth’s evidence,
but only so much of Hicks’ evidence as, when read
fairly in context of the whole suppression record, remains uncontradicted. In re L.J., 79 A.3d 1073, 107980 (Pa. 2013). “We also note that in the suppression
context, appellate courts do not simply comb through
the record to find evidence favorable to a particular
ruling. Rather, appellate courts look to the specific findings of fact made by the suppression court.” Id. at 1085.
At oral argument before this Court, the Commonwealth abandoned the argument advanced in its principal brief, contending instead that Hicks’ judgment of
sentence should be affirmed because Hicks’ seizure
was supported by reasonable, articulable suspicion of
criminal activity. The facts giving rise to reasonable
suspicion, the Commonwealth contended, were the
“showing” of a firearm to another individual, near 3:00
a.m., in a high crime area, where the officer previously
had responded to calls regarding criminal activity.
The Commonwealth further made reference to Officer
Pammer’s testimony regarding “brandishing” of the
firearm, but nonetheless contended that the trial
court’s finding of fact, referring to “showing” of the
firearm, established sufficient grounds for an investigative detention. See Order, 9/18/2015, at 1 n.1. As
phrased at oral argument, the Commonwealth described the information available to the officers at the
time of the seizure as follows: “[Hicks] lifted up his
shirt, he pulled out a weapon, showed it, put it back in

A-63
his waistband, pulled his shirt over top of it, and went
into the store.” Oral Argument, 12/4/2018, Harrisburg.
We begin with Officer Pammer’s testimony regarding Hicks’ “brandishing” of the firearm. Although not a
defined offense under Pennsylvania law, “brandishing”
suggests the use of a weapon in a threatening manner,
or perhaps its display in a reckless or ostentatious
fashion. For present purposes, we will assume without
deciding that, if established, an individual’s “brandishing” of a firearm may establish reasonable suspicion
that the individual engaged in some type of violent or
assaultive conduct that would constitute a criminal offense under the statutes of this Commonwealth. We
turn to the evidence presented at Hicks’ suppression
hearing on July 14, 2015, bearing in mind the suppression court’s findings of fact, which stated that Hicks
“showed the firearm to another patron, put the firearm
in his waistband, covered it with his shirt, and walked
inside” the convenience store. Order, 9/18/2015, at 1 n.1
(emphasis added).
Officer Pammer was the sole witness at the suppression hearing. Officer Pammer testified about the
information that he received before responding to the
scene, which began with a “tone” over the police dispatch, which is “an indicator to all city police units . . .
that a serious call is unfolding and to wait for the dispatch to give it to you.” Notes of Testimony (“N.T.”),
7/14/2015, at 6. The tone, Officer Pammer testified, was
“for an individual at the Pace Market Gulf station at
Seventh and Tilghman Streets that was brandishing a
firearm.” Id. Officer Pammer further clarified that the

A-64
“dispatchers advised over our police dispatch to all
units that a male in a white shirt was brandishing a
firearm towards another male at the Pace Mart and
that he was driving, I believe it was a silver [Chevrolet]
Impala.” Id. at 7-8.
On cross-examination, defense counsel challenged
Officer Pammer’s use of the word “brandishing.” Officer
Pammer testified as follows:
[Defense Counsel]: Do you recall specifically
what the dispatch would have said? I know
you said brandishing a firearm, do you recall
that the dispatch actually said firearm—just
showed it to another individual at the gas station?
[Officer Pammer]: I don’t remember that, I
just remember that it was brandishing—it
doesn’t—they didn’t state that it was pointed
or—
[Defense Counsel]: Okay.
[Officer Pammer]: —or you know, threatening somebody with it, just somebody was holding a gun, along that nature.
[Defense Counsel]: And you received that information over a police radio broadcast?
[Officer Pammer]: Yes.
[Defense Counsel]: Okay. And to the best of
your knowledge are those recorded?
[Officer Pammer]:

They should be. Yes.

A-65
[Defense Counsel]: Okay. So, if there are recordings of those police broadcasts, they
would be the true and accurate information
that you received on that evening. Correct?
[Officer Pammer]:

Correct.

Id. at 14-15.
There were, indeed, audio recordings of the police
dispatch that morning, including a recording of the report that the camera operator provided to the police.
The audio recordings were submitted into evidence as
Defense Exhibit 2, along with a recording of the video
feed that the camera operator was watching, submitted into evidence as Defense Exhibit 1.
This Court has carefully reviewed the audio and
video evidence. Defense Exhibit 2 includes recordings
of the police dispatch, the camera operator’s report,
and the subsequent communications between the police officers as they investigated Hicks’ possession of
his firearm.18 Most notably, the word “brandishing” is
not used at any point by either the camera operator or
the police dispatcher. The “tone” that Officer Pammer
described clearly is audible in the dispatch recording.
The tone is followed by a dispatcher’s advisement that
the “camera operator observed a black male, white
18

The audio recordings also chronicled the officers’ examination of the handgun’s serial number, which revealed that Hicks
was the individual who lawfully purchased the handgun, on February 26, 2013. The officers further checked Hicks’ license to carry
a concealed firearm, which was valid and not scheduled to expire
until March 2018.

A-66
shirt, put a gun in his waistband. He’ll be next to a
two-tone black Impala. Pump number six.” Police Dispatch, 6/28/2014, Defense Exhibit 2 (emphasis added).
Although Officer Pammer accurately recalled
other details contained within the dispatch, such as
the description of Hicks’ apparel and the model of automobile that he drove, Officer Pammer’s testimony
substituted the word “brandishing” for the much more
innocuous conduct described by the dispatcher, which
was merely that Hicks “put a gun in his waistband.”
That description provided by the dispatch was the basis for Hicks’ seizure.
In light of Officer Pammer’s express and unequivocal recognition that an audio recording of the dispatch
would reflect “the true and accurate information” upon
which the officers relied, N.T., 7/14/2015, at 15, it cannot reasonably be contended that the audio recording
of the dispatch was “contradicted” by the Commonwealth’s evidence, such that we must discount it from
our review of the suppression court’s findings of fact.
Further, on cross-examination, Officer Pammer clarified that the information provided to the officers did
not suggest that Hicks had “pointed” the handgun at
anyone, or that he was “threatening somebody with it,”
but, instead, that “just somebody was holding a gun,
along that nature.” Id.
An audio recording of the camera operator’s description of Hicks’ behavior is included within Defense
Exhibit 2. The camera operator provided this report
after the police officers had arrived on the scene, and

A-67
after Hicks already had been seized. Thus, its contents
have little to no bearing upon the police officers’ assessment of reasonable suspicion. See, e.g., J.L., 529 U.S. at
271 (“The reasonableness of official suspicion must be
measured by what the officers knew before they conducted their search.”). Nonetheless, because we must
view all of the evidence of record in the light most favorable to the Commonwealth, and for the avoidance
of any doubt with regard to whether the camera operator’s knowledge may be imputed to the officers, c.f.
Commonwealth v. Yong, 177 A.3d 876 (Pa. 2018), we
assess whether the camera operator’s description offers any support for the Commonwealth’s position. The
report proceeded as follows:
Police Officer: All right. What exactly did
you see? Did you, uh, see him take the gun out,
or just his shirt lifted up?
Camera Operator: No, when he gets out of
the car, he was where your car [inaudible],
where that black one is now, at pump six.
There was another vehicle there. He gets out
of his car next to it, on the opposite side of
pump six, that black car there. Gets out of the
car, does a handshake with a guy, I see him
putting it in his waistband and then pulls his
shirt over it. I can see it clear as day that it’s
a firearm.
Police Officer:

Copy.

Camera Operator: The gentleman he was
with made sure he knew he had a firearm on
him. And then walked into the store with it

A-68
after he pulled his shirt over it. I didn’t think
he had a holster, I thought he just put it in the
waistband.
Camera Operator Report, 6/28/2018, Defense Exhibit
2. Like the dispatcher, the camera operator does not
use the word “brandishing” or otherwise describe any
kind of violent or threatening conduct.
This Court also has carefully reviewed the video
footage recorded by the camera operator that morning,
submitted into evidence as Defense Exhibit 1, the contents of which the Commonwealth’s evidence did not
contradict. Because both Hicks and the Commonwealth repeatedly refer to the video’s contents, we will
describe what we see therein.
Hicks arrives at the Pace Mart at 2:31 a.m. and
parks his vehicle at a gas pump. A second, unidentified
individual already was parked at an adjacent gas
pump. The individual clearly recognizes Hicks as an
acquaintance, and approaches Hicks’ vehicle to greet
him. Hicks exits his vehicle, and his firearm becomes
visible, albeit barely. Hicks either is holstering the firearm or adjusting his garments around it when the second individual reaches Hicks’ driver’s side door, which
is still open. The individual greets Hicks, and the two
men shake hands with a brief, one-armed embrace.
Hicks does not appear to gesture or point to the firearm, and he does not remove it from his waistband at
any point. Hicks begins to walk toward the convenience store, continuing to adjust the position of the
handgun, which becomes more clearly visible for a

A-69
moment. Thereafter, the handgun is holstered outside
Hicks’ waistband and covered by his shirt, but its outline remains visible. Hicks enters the store, exits a
short time later, then returns to the gas pump, where
he begins to fuel his vehicle. Hicks speaks briefly to a
third, unidentified individual while he pumps gas.
Hicks then reenters his vehicle and begins to pull away
from the gas pump. Moments later, numerous marked
police vehicles intercept Hicks’ vehicle with their lights
flashing.
Even viewing all of the evidence in the light most
favorable to the Commonwealth, there exists no basis
for a finding that Hicks was engaged in any manner of
criminal conduct. There was no indication or apparent
threat of violence, and no information suggesting that
Hicks engaged in any type of confrontation with another individual, physical, verbal, or otherwise. Neither the camera operator’s report nor the police radio
dispatch suggest anything of the sort. Indeed, “[t]he
video from the camera clearly shows the firearm concealed in [Hicks’] waistband and that, despite the hour,
there are a number of individuals at this location.”
Brief for Commonwealth at 16. However, significantly,
no individual expresses any visible indication of alarm
at Hicks’ presence, his possession of his firearm, or the
manner in which he carried it. Rather, the video depicts patrons of a gas station going about their business, at least two of whom engage in seemingly
friendly interactions with Hicks.
In light of defense counsel’s use of the word
“showed” when cross-examining Officer Pammer, N.T.,

A-70
7/14/2015, at 15, we conclude that the record contains
minimal support for the suppression court’s finding
that Hicks “showed” his firearm to another individual.
Order, 9/18/2015, at 1 n.1. We find no evidentiary support for an alternative contention that Hicks “brandished” the firearm in any way, or at anyone. Further,
the characterization that the Commonwealth provided
at oral argument—that Hicks removed the handgun
from his waistband, showed it to another individual,
then placed it back in his waistband—is likewise unsupported by the evidence of record.
All that remains is the Commonwealth’s repeated
emphasis upon the time of day at which the seizure
occurred and the fact that Hicks was seized in what
Officer Pammer described, based upon his experience,
as a high crime neighborhood. These can serve as relevant contextual considerations in a totality of the circumstances inquiry. See, e.g., Adams, 407 U.S. at 14748; but see Wardlow, 528 U.S. at 124 (“An individual’s
presence in an area of expected criminal activity,
standing alone, is not enough to support a reasonable,
particularized suspicion that the person is committing
a crime.”). Even taking into account the early morning
hour and Officer Pammer’s characterization of the
neighborhood, there remains no particularized basis
upon which to suspect that Hicks’ mere possession of a
concealed firearm was unlawful.
In consideration of the totality of the circumstances, even in the light most favorable to the Commonwealth, the facts do not support a finding of
reasonable, articulable suspicion that Hicks was

A-71
engaged in any manner of criminal activity on the
morning that he was seized. As the suppression court
found, and as confirmed by the evidence of record,
Hicks was seized solely due to the observation of a firearm concealed on his person. Although such a seizure
then may have been viewed as constitutional under
prevailing Superior Court precedent, we reject that
precedent today.
Michael Hicks was deprived of the protections of
the Fourth Amendment and Article I, Section 8 of the
Pennsylvania Constitution, and the evidence derivative of his seizure should have been suppressed.
The judgment of sentence is vacated, and the matter is remanded for further proceedings consistent
with this Opinion.
Chief Justice Saylor and Justices Todd and
Donohue join the opinion.
Justice Baer joins Parts I, II.A, B., and C.(i.-v.) and
files a concurring opinion.
Justice Dougherty files a concurring opinion in
which Justice Mundy joins.
Judgment Entered 05/31/2019
/s/ Elizabeth Zich
CHIEF CLERK

A-72
[J-86-2018] [MO: Wecht, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
COMMONWEALTH
OF PENNSYLVANIA,
Appellee
v.
MICHAEL J. HICKS,
Appellant

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 56 MAP 2017
Appeal from the Order
of the Superior Court
dated March 29, 2017
at No. 510 EDA 2016
Affirming Judgment
of Sentence from the
Lehigh County Court
of Common Pleas,
Criminal Division,
dated January 11, 2016
at No. CP-39-CR0005692-2014.
ARGUED:
December 4, 2018

CONCURRING OPINION
JUSTICE BAER

DECIDED: May 31, 2019

This Court granted allowance of appeal in this
matter to address the narrow question of “[w]hether
the Superior Court’s bright line rule holding that possession of a concealed firearm in public is sufficient
to create reasonable suspicion[.]” Commonwealth v.
Hicks, 172 A.3d 583 (Pa. 2017). I agree with the Majority that this bright line rule cannot withstand constitutional scrutiny; accordingly, I join Parts I., II.A., B.,
and C.(i.-v.) of the Majority Opinion. Most importantly,

A-73
I join the Majority’s ultimate conclusion that “the Superior Court patently has erred in concluding that the
possession of a concealed firearm by an individual in
public is sufficient to create a reasonable suspicion
that the individual may be dangerous, such that an
officer can approach the individual and briefly detain him in order to investigate whether the person is
properly licensed.” Majority Opinion at 45 (internal
quotation marks omitted).
Having answered the sole question presented in
this matter, unlike the Majority, I would not examine
whether the trial court erred by denying Appellant’s
motion to suppress. Majority Opinion at 45 (“Notwithstanding the lower courts’ application of an erroneous
conclusion of law, there remains a question of whether
[Appellant’s] seizure nonetheless was supported by
reasonable, articulable suspicion of criminal activity,
such as would render the investigative detention lawful.”). Rather, I would vacate the judgment of the Superior Court and remand the matter to that court with
the instruction to reconsider the merits of Appellant’s
direct appeal in light of this Court’s decision.

A-74
[J-86-2018] [MO: Wecht, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
COMMONWEALTH
OF PENNSYLVANIA,
Appellee
v.
MICHAEL J. HICKS,
Appellant

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 56 MAP 2017
Appeal from the Order
of the Superior Court
dated March 29, 2017
at No. 510 EDA 2016
Affirming Judgment
of Sentence from the
Lehigh County Court
of Common Pleas,
Criminal Division,
dated January 11, 2016
at No. CP-39-CR0005692-2014.
ARGUED:
December 4, 2018

CONCURRING OPINION
JUSTICE DOUGHERTY

DECIDED: May 31, 2019

Our legislature made nonlicensure an element of
the crime of carrying a concealed firearm pursuant to
18 Pa.C.S. §6106. Commonwealth v. McNeil, 337 A.2d
840, 843 (Pa. 1975). It did not make licensure an affirmative defense to that crime. It necessarily follows,
then, that a police officer’s knowledge an individual is
carrying a concealed firearm in Pennsylvania, standing alone, does not establish reasonable suspicion

A-75
justifying a Terry1 stop to investigate a possible violation of Section 6106. This is because mere knowledge
of a concealed firearm does not give an officer reason
to believe every element of the crime—including nonlicensure—has been met. That analysis is sufficient to
resolve this case. Because the majority rejects this element-or-defense test in reaching its conclusion, I respectfully concur in the result only.
I.
We are not the first court tasked with deciding
the issue presented in this case. The majority forthrightly recognizes this, as well as the fact that many of
those other jurisdictions have analyzed the underlying
Fourth Amendment question “based upon whether, under applicable statutes, nonlicensure is an element of
the crime of carrying a firearm without a license—in
which case a Terry stop for mere possession is unlawful—or whether licensure serves as an affirmative
defense to the criminal charge—in which case a Terry
stop is lawful.” Majority Opinion, slip op. at 25-26 (emphasis in original). Ultimately, however, the majority
concludes those decisions employing an element-or-defense approach are unpersuasive and “untenable, because [they] allow a manifestly unacceptable range of
ordinary activity to, by itself, justify Terry stops.” Id. at
27 (citation and quotation omitted). I cannot agree. As
I explain below, I believe the element-or-defense test,
which has been adopted by the overwhelming majority
1

Terry v. Ohio, 392 U.S. 1 (1968).

A-76
of jurisdictions that have considered this issue, is consistent with the Fourth Amendment; the authority the
majority relies upon in support of rejecting the test is
unconvincing; and the majority’s alternative analysis
will have profound consequences on law enforcement’s
ability to effectively investigate and prevent other
crimes involving licensures.2
A.
As the majority admits, most courts that have considered Fourth Amendment seizures based solely upon
the possession of a firearm have done so “with a particular eye toward the lawfulness of such activity under
the statutes of the subject jurisdiction.” Majority Opinion, slip op. at 24. Illustrative of this approach is the
recent decision in United States v. Pope, 910 F.3d 413
(8th Cir. 2018). In Pope, the Eighth Circuit Court of
Appeals considered whether an officer was entitled to
stop an individual the officer reasonably believed was
carrying a concealed gun in Des Moines, Iowa. Recognizing that carrying a concealed weapon is a criminal
offense under Iowa Code §724.4(1), and that possession
of a concealed-carry permit is merely an affirmative
defense to such a charge, the court held the officer had
reasonable suspicion justifying the stop. Pope, 910 F.3d
at 415-16. In reaching this conclusion, the court explained that under Iowa’s statutory scheme, carrying a
2

Like the majority, I limit my discussion to the Fourth
Amendment, as the issue presented “is one of law enforcement
practice . . . not [ ] the right to keep and bear arms.” Majority
Opinion, slip op. at 7 n.5.

A-77
concealed weapon “is presumptively criminal until the
suspect comes forward with a permit[.]” Id. at 416.
The Tenth Circuit Court of Appeals reached the
same conclusion in United States v. Rodriguez, 739
F.3d 481 (10th Cir. 2013). Addressing Section 30-7-2 of
the New Mexico Criminal Code, the court found the
statute set forth a general criminal offense—carrying
a concealed loaded firearm—but then excepted certain
acts or classes of individuals from its scope, including
those who possess a valid concealed handgun license.
Rodriguez, 739 F.3d at 487. In other words, the court
found that “carrying a concealed loaded handgun on or
about one’s person in New Mexico is presumptively unlawful[,]” and licensure is an exception to the offense.
Id. at 487-88. This distinction was critical to the court’s
Fourth Amendment analysis, as it concluded the statutory exception operated as an affirmative defense to
the charge, and thus it “need not bear upon an investigating officer’s initial determination of reasonable suspicion where the exception’s applicability would not be
readily apparent to a prudent officer prior to the suspect’s seizure.” Id. at 488.
Many other federal and state courts have applied
the element-or-defense test to discrete state statutes
and concluded the presence of a concealed firearm
gives rise to reasonable suspicion in those jurisdictions. See, e.g., United States v. Lewis, 674 F.3d 1298,
1304 (11th Cir. 2012) (Terry stop justified where, under
Florida law, “the possession of a valid permit for a concealed weapon is not related to the elements of the
crime, but rather is an affirmative defense”); United

A-78
States v. Gatlin, 613 F.3d 374, 378 (3d Cir. 2010) (reasonable suspicion supported a seizure because, “under
Delaware law, carrying a concealed handgun is a
crime to which possessing a valid license is an affirmative defense, and an officer can presume a subject’s
possession is not lawful until proven otherwise”);
GeorgiaCarry.Org, Inc., v. Metropolitan Atlanta Rapid
Transit Auth., No. 1:09-CV-594-TWT, 2009 WL
5033444, at *5 (N.D. Ga. Dec. 14, 2009) (“Because a
Georgia firearms license is an affirmative defense to
. . . the crime of carrying a concealed weapon, it does
not matter if there was no reason to suspect [the defendant] did not have a Georgia firearms license.”);
State v. Timberlake, 744 N.W. 2d 390, 395, (Minn. 2008)
(where permit to carry a pistol is an affirmative defense, “officers had a reasonable basis to suspect that
[the defendant] was engaged in criminal activity, even
without knowing whether he had a permit”).3
3

There is also a handful of jurisdictions that have concluded
observation of a firearm—in some cases concealed, in other cases
openly carried—does not establish reasonable suspicion. See, e.g.,
Northrup v. City of Toledo Police Dep’t, 785 F.3d 1128 (6th Cir.
2015); United States v. Black, 707 F.3d 531 (4th Cir. 2013); United
States v. Ubiles, 224 F.3d 213 (3d Cir. 2000); United States v.
King, 990 F.2d 1552 (10th Cir. 1993). But as the Eighth Circuit
astutely observed in Pope, see 910 F.3d at 415, these cases concerned conduct for which no license was required and was not otherwise criminal. See Northrup, 785 F.3d at 1132 (“[c]arrying a
handgun out in the open is not an ‘offense’ in Ohio”); Black, 707
F.3d at 540 (it is “undisputed” that North Carolina “permit[s] its
residents to openly carry firearms”); Ubiles, 224 F.3d at 218 (“the
Virgin Islands legislature has not enacted a criminal statute prohibiting gun possession in a crowd or at a carnival”); King, 990
F.2d at 1555 (“[New Mexico] law permits motorists to carry loaded

A-79
These decisions highlight the importance state
law plays in the Fourth Amendment analysis. See generally 1 Wayne R. LaFave, Search & Seizure: A Treatise
on the Fourth Amendment, §1.5(a) (5th ed. 2018)
(“[S]ometimes how one comes out under the applicable
Fourth Amendment standard will of necessity depend
upon the contours of state or local law.”). After all, the
legislature has “the exclusive power to pronounce
which acts are crimes [and] to define crimes,” Commonwealth v. Church, 522 A.2d 30, 35 (Pa. 1987), and it is
the elements of those crimes that officers must consider when determining whether there is “reasonable,
articulable suspicion that criminal activity is afoot.”
Illinois v. Wardlow, 528 U.S. 119, 123 (2000), citing
Terry, 392 U.S. at 30.
Relatedly, within broad constitutional bounds,
legislatures have flexibility “to reallocate burdens of
proof by labeling as affirmative defenses at least some
elements of the crimes now defined in their statutes.”
Patterson v. New York, 432 U.S. 197, 210 (1977); see also
Smith v. United States, 568 U.S. 106, 110 (2013) (where
an affirmative defense “excuses conduct that would
otherwise be punishable, but does not controvert any
elements of the offense itself, the Government has no
constitutional duty to overcome the defense beyond a
reasonable doubt”) (citation and quotation omitted).
weapons, concealed or otherwise, in their vehicles”). Thus, while
these cases are instructive with regard to the Fourth Amendment
analysis applicable to nonlicensed or noncriminal conduct, such
as openly carrying a firearm in Pennsylvania outside of Philadelphia, they have little bearing on the present matter.

A-80
While affirmative defenses typically only become relevant at trial, many courts have also recognized their
Fourth Amendment implications. In this regard, courts
are nearly unanimous in holding the potential applicability of an affirmative defense to a crime does not defeat reasonable suspicion or probable cause supporting
an arrest, search, or seizure, except where the officer
conclusively knows the affirmative defense applies.
See, e.g., Painter v. Robertson, 185 F.3d 557, 571 n.21
(6th Cir. 1999) (explaining affirmative defenses play a
role in Fourth Amendment analysis only “where a reasonable police officer would conclusively know that an
investigative target’s behavior is protected by a legally
cognizable affirmative defense[;]” in “all other cases,
the merits of an alleged affirmative defense should be
assessed by prosecutors and judges, not policemen”);
see also Baker v. McCollan, 443 U.S. 137, 145-46 (1979)
(“we do not think a sheriff executing an arrest warrant
is required by the Constitution to investigate independently every claim of innocence, whether the claim
is based on mistaken identity or a defense such as lack
of requisite intent”).
In my view, the above discussion provides an adequate basis for concluding the element-or-defense
test is constitutionally permissible under the Fourth
Amendment. It also demonstrates the significant benefits conferred by the test: it respects legislative judgments about the structure of criminal offenses and
burdens of proof, as well as avoids the perverse situation where the government has less to prove at a criminal trial than an investigating officer has a duty to

A-81
consider during an investigation. See Pope, 910 F.3d at
416 (“we see no reason why the suspect’s burden to produce a permit should be any different on the street
than in the courtroom”); Mackey v. State, 83 So.3d 942,
947 (Fla. Dist. App. 2012) (to “require that a police officer not only have reasonable suspicion of criminal activity, but reasonable suspicion of the non-existence of
an affirmative defense to the crime,” would be “contrary to both precedent and common sense”); cf. Adams
v. Wlliams, 407 U.S. 143, 149 (1972) (“Probable cause
does not require the same type of specific evidence of
each element of the offense as would be needed to support a conviction.”).
B.
Presented with the opportunity to join the overwhelming and ever-growing tide of jurisdictions that
have adopted the element-or-defense approach, the
majority instead rejects them outright because it finds
“much greater appeal” in two state court decisions that
have not embraced the test: Commonwealth v. Couture,
552 N.E.2d 538 (Mass. 1990) and Pinner v. State, 74
N.E.3d 226 (Ind. 2017). Majority Opinion, slip op. at 27.
In my respectful view, neither case is persuasive.
In Couture, a majority of the Supreme Judicial
Court of Massachusetts concluded the “mere possession of a handgun was not sufficient to give rise to a
reasonable suspicion that the defendant was illegally
carrying [a] gun[,]” even though licensure is an affirmative defense under Massachusetts law. 552 N.E.2d at

A-82
541. However, the court’s discussion “is relatively conclusory, [and] little can be said about the underlying
analysis.” Royce de R. Barondes, Conditioning Exercise
of Firearms Rights On Unlimited Terry Stops, 54 IDAHO
L. REV. 297, 335 (2018). The decision in Couture also
preceded all of the aforementioned cases adopting the
element-or-defense approach, meaning the court did
not have the benefit of considering the rationales laid
out in those later decisions. Given Couture’s conclusory
analysis and early adoption, I do not find it a convincing reason for straying from the test used by the majority of other jurisdictions.
Pinner holds even less value than Couture. While
the majority apparently finds it “appealing” that the
Indiana Supreme Court reached “an identical conclusion [as the court in Couture] with nary a mention of
the element-or-defense approach[,]” Majority Opinion,
slip op. at 27, I find nothing persuasive about Pinner’s
failure to address, much less distinguish or reject, a
compelling legal theory. Moreover, the court in Pinner
“primarily treat[ed] the issue [as] having been resolved
by [Florida v. J.L., 529 U.S. 266 (2000)].” Barondes, supra, at 336. See Pinner, 74 N.E.3d at 233 (“This is precisely the type of ‘weapons or firearm exception’ that
. . . the United States Supreme Court expressly disapproved of in J.L.”). Yet, the majority here concludes,
and I certainly agree, that the J.L. Court’s rejection of
a proposed “firearm exception” was “grounded upon the
reliability inquiries attending anonymous tips, not the
distinct question of whether the mere possession of a
firearm, however discerned, may establish a per se

A-83
basis for an investigative detention.” Majority Opinion,
slip op. at 24. In essence, the majority endorses the result in Pinner while simultaneously rejecting the central premise of that court’s rationale for reaching that
result. This inconsistency undermines any force Pinner
may have had.
The only other authority cited by the majority
that could arguably support rejection of the elementor-defense test is Delaware v. Prouse, 440 U.S. 648
(1979). But Prouse proves no more persuasive a basis
for rejecting the element-or-defense approach than
Couture or Pinner. As the majority does, the defendant
in Rodriguez viewed the question of whether an officer
may conduct an investigative detention based solely
on the presence of a concealed firearm as “analogous
to the question of whether an officer can pull over
any motor vehicle he chooses in order to determine
whether the driver is properly licensed and in lawful
possession of the car.” 739 F.3d at 490 (citation omitted). The Tenth Circuit, joined by then-Judge, nowUnited States Supreme Court Justice Neil Gorsuch,
roundly rejected this position:
To be sure, any construction of a motor
vehicle statute permitting such random stops,
however the statute is worded, would be unconstitutional. In Delaware v. Prouse, 440 U.S.
648, 99 S.Ct. 1391, 59 L.Ed.2d 660 (1979), the
Supreme Court held the Fourth Amendment
prohibits an officer from stopping a vehicle
for the sole purpose of checking the driver’s license and registration, where neither probable cause nor reasonable suspicion exists to

A-84
believe the motorist is driving the vehicle contrary to the laws governing the operation of
motor vehicles. Id. at 650, 663. The Court reasoned:
It seems common sense that the percentage of all drivers on the road who
are driving without a license is very
small and that the number of licensed drivers who will be stopped in
order to find one unlicensed operator
will be large indeed. The contribution
to highway safety made by discretionary stops selected from among
drivers generally will therefore be
marginal at best. . . . In terms of actually discovering unlicensed drivers
or deterring them from driving, the
spot check does not appear sufficiently productive to qualify as a reasonable law enforcement practice
under the Fourth Amendment.
Id. at 659–60.
Driving a car, however, is not like carrying a concealed handgun. Driving a vehicle
is an open activity; concealing a handgun is
a clandestine act. Because by definition an
officer cannot see a properly concealed handgun, he cannot randomly stop those individuals carrying such weapon. . . . Moreover,
unlike the random stop of a motorist, we may
safely assume the contribution to public
safety made by the stop of an individual
known to be carrying a concealed handgun

A-85
will hardly be insignificant since “[c]oncealed
weapons create an immediate and severe danger to the public.” Terry, 392 U.S. at 31 (Harlan, J., concurring).
Randomly stopping a vehicle to check
the driver’s license and registration is more
comparable to randomly stopping an individual openly carrying a handgun (which incidentally is lawful in New Mexico). The
Supreme Court held the former unconstitutional. Whether the latter is constitutionally
suspect is a question for another day. But
where a police officer in New Mexico has personal knowledge that an individual is carrying a concealed handgun, the officer has
reasonable suspicion that a violation of N.M.
Stat. Ann. § 30–7–2(A) is occurring absent a
readily apparent exception to subsection (A)’s
prohibition. Accordingly, Officer Munoz’s initial seizure of Defendant was “justified at
its inception” and therefore passes Fourth
Amendment scrutiny. Terry, 392 U.S. at 22.
Rodriguez, 739 F.3d at 490–91 (emphasis in original).
The Tenth Circuit’s treatment of Prouse is compelling. Among other things, it refutes the majority’s rationale the element-or-defense approach “allow[s] a
manifestly unacceptable range of ordinary activity to,
by itself, justify Terry stops.” Majority Opinion, slip op.
at 27. As the Tenth Circuit points out, that critique
might be warranted if the issue were the random stopping of an individual openly carrying a handgun—an
irrefutably legal and ordinary activity in Pennsylvania

A-86
outside of Philadelphia. But since we are here considering the Fourth Amendment implications of an individual’s concealed carrying of a firearm, rather than an
openly carried firearm, Prouse neither controls this
matter nor justifies the majority’s refusal to embrace
the element-or-defense approach.
C.
The majority’s rejection of the element-or-defense
approach not only puts our Fourth Amendment jurisprudence out of synch with the majority of the country,
it also creates sweeping—though perhaps unintended—consequences for law enforcement’s ability to
effectively investigate and prevent other criminal activity involving licensures. One obvious example highlights the point.
As the majority correctly notes, no license is required in order to carry a firearm openly on one’s person in Pennsylvania, except in Philadelphia. See
Majority Opinion, slip op. at 9. “[I]t is no secret that the
level of gun violence in Philadelphia is staggeringly
disproportionate to any other area of Pennsylvania.”
Commonwealth v. Scarborough, 89 A.3d 679, 686 (Pa.
Super. 2014), appeal denied, 102 A.3d 985 (Pa. 2014)
(per curiam). Indeed, the Superior Court has recognized:
The four years preceding the formation of the
Philadelphia Gun Court were years of intense
violence in Philadelphia: from 2000 to 2004,
the city experienced more than 300 murders

A-87
per year. See Murders on rise in Philadelphia,
USA Today, December 12, 2005, available at
http://usatoday.com/news/nation/2005-12-04murders-philadelphia-x.htm. (last visited September 8, 2010). Philadelphia’s murder rate in
2004, of 22.4 per 100,000 residents, was ‘the
highest of the nation’s 10 largest cities and
rank[ed] third among the 25 largest, behind
Baltimore and Detroit.’ Id. Eighty percent of
the murders in Philadelphia were shooting
deaths, ten percent higher than the national
average.
Id. (citation omitted).
Recognizing this unfortunate reality, the legislature enacted 18 Pa.C.S. §6108, which “rationally addresses gun violence in Philadelphia.” Id. at 686-87. By
imposing a prohibition against openly carrying a firearm in Philadelphia without a license, the legislature
sought to address the fact that, “as the most populated
city in the Commonwealth with a correspondingly high
crime rate, the possession of a weapon on a city street,
particularly the brandishing of a weapon, can invoke a
fearful reaction on behalf of the citizenry and the possibility of a dangerous response by law enforcement officers.” Id. “[A] coordinate purpose [of Section 6108] is
to aid in the efforts of law enforcement in the protection of the public[.]” Id. at 687.
As I see it, the inevitable effect of the analysis
adopted by the majority—which does not take into account whether nonlicensure is an element of, or licensure a mere affirmative defense to, a crime—will be to

A-88
frustrate the very purposes behind the legislature’s enactment of Section 6108. This is so because, by rejecting the element-or-defense test, the majority affords no
deference to the legislature’s construction of the crime.
And if, as the majority concludes, a police officer cannot
infer criminal activity merely from an individual’s
possession of a concealed firearm because it may be
properly licensed, it logically follows that an officer
cannot infer criminal activity merely from an individual’s possession of an openly carried firearm in Philadelphia, because it too may be licensed. This result is
untenable.
For decades, courts in this Commonwealth have
held “an officer’s observation of an individual carrying
a handgun on public streets in the city of Philadelphia
gives rise to probable cause for an arrest under §6108.”
Commonwealth v. Taggart, 997 A.2d 1189, 1196-97
(Pa. Super. 2010), citing Commonwealth v. Romero, 673
A.2d 374 (Pa. Super. 1996) and Commonwealth v. Davis, 614 A.2d 291 (Pa. Super. 1992). The construction of
the crime’s definition explains why this is the case. Unlike carrying a concealed firearm under Section 6106,
for which the legislature made nonlicensure an element of the crime, the legislature took the exact opposite approach with regard to Section 6108, by making
licensure an affirmative defense. See Commonwealth v.
Bigelow, 399 A.2d 392, 396 (Pa. 1979) (“[T]he legislature must have intended that subsections (1) and (2) of
[Section] 6108 be treated as setting forth defenses
which, if they are to be raised at all, must be raised by
the one charged with the offense.”); see id. at 395 (“That

A-89
the legislature intended the licensure issue in [S]ection 6106 cases to differ from the disposition of the
same issue in [S]ection 6108 cases is borne out by the
differing language employed in each section.”). In
short, by deeming licensure an affirmative defense to
the crime of carrying a firearm on the streets of Philadelphia, the legislature clearly intended “to aid in the
efforts of law enforcement in the protection of the public[.]” Scarborough, 89 A.3d at 687.
In eschewing the element-or-defense approach,
the majority renders irrelevant the purposeful distinction the legislature made between the crimes of carrying a concealed firearm and carrying a firearm on the
streets of Philadelphia. Such decision, which rationally
addresses gun violence in Philadelphia, was the legislature’s alone to make, and it is entitled to deference
from this Court. The element-or-defense approach
would afford such deference; the majority’s analysis
does not.4
4

Although I focus on the crime of carrying a firearm in Philadelphia to underscore the broader problems with the majority’s
rejection of the element-or-defense approach, there are undoubtedly other crimes involving licensures that will be similarly affected by the majority’s analysis. For example, it has long been
the law that “the odor of marijuana alone . . . is sufficient to support at least reasonable suspicion[.]” In Interest of A.A., 195 A.3d
896, 904 (Pa. 2018) (citations omitted). The majority’s analysis
arguably casts doubt on that settled Fourth Amendment principle
in light of the enactment of the Medical Marijuana Act, 35 P.S.
§§10231.101-10231.2110, which makes it lawful for licensed patients to possess and use medical marijuana. Several other states,
in upholding searches and seizures involving marijuana, have relied on the fact that legal marijuana use in those jurisdictions is

A-90
Not only does the majority’s alternative analysis
fail to attach any Fourth Amendment significance to
the legislature’s exclusive power to define crimes and
affirmative defenses in this Commonwealth, it is also
bound to create an unnecessary disparity between federal and state criminal prosecutions arising out of
Philadelphia. As explained, the logical endpoint of the
majority’s refusal to adopt the element-or-defense approach will be the reversal of a long line of precedent
holding an officer’s observation of an openly carried
firearm in Philadelphia justifies an investigative detention or even an arrest. Thus, under the majority’s
analysis, if an officer detains an individual based solely
on his carrying a firearm in Philadelphia, the stop will
be deemed unlawful for purposes of a state prosecution. Conversely, if that same prosecution were instead
brought in federal court the stop will not be deemed
merely an affirmative defense. See, e.g., State v. Senna, 79 A.3d
45, 49-50 (Vt. 2013) (since Vermont’s medical marijuana law “exempts from prosecution a small number of individuals who comply with rigid requirements for possession or cultivation[,]” the
possibility that someone might be immune from prosecution “does
not negate the State’s probable cause to search based in part on
the odor of fresh marijuana”); State v. Fry, 228 P.3d 1, 5 (Wash.
2010) (probable cause to search existed notwithstanding a recognized “compassionate use defense” to marijuana charges in Washington; the law “only created a potential affirmative defense that
would excuse the criminal act . . . [but it] does not, however, result
in making the act of possessing and using marijuana noncriminal
or negate any elements of the charged offense”). This Court has
not yet had an opportunity to address the Fourth Amendment implications of Pennsylvania’s authorization of medical marijuana
use, but the majority’s rejection of the element-or-defense approach here arguably forecloses our ability to conduct an analysis
similar to that employed by our sister states in such cases.

A-91
unlawful, because the Third Circuit has adopted the
element-or-defense approach, and it therefore recognizes our legislature’s rational decision to make licensure an affirmative defense to a charge under Section
6108. See, e.g., United States v. Bond, 173 Fed. Appx.
144, 146 (3d Cir. 2006) (because “possession of a license
is an affirmative defense that can be raised by the defendant[,]” “a police officer has probable cause to arrest
an individual for violation of [S]ection 6108 based
solely on the officer’s observation that the individual is
in possession of a firearm on the streets of Philadelphia”). This absurd incongruity could and should be
avoided.
II.
All of the above convinces me the element-ordefense approach presents the more sound analysis for
dealing with crimes involving licensures. The majority
of jurisdictions that have considered this issue have
adopted the approach, and those few jurisdictions that
have declined to do so fail to offer any persuasive rationale for following suit. There is also serious cause
for concern over the majority’s alternative analysis,
which fails to afford any deference to the legislature’s
power to define crimes and affirmative defenses. At the
very least, the majority’s analysis calls into question
swaths of Pennsylvania precedent authorizing police
conduct with respect to the investigation of certain
other criminal activity involving licensures, including

A-92
openly carrying firearms in Philadelphia and the possession and use of controlled substances.5
For these reasons, unlike the majority, I would
adopt the element-or-defense approach. Applying that
test here, the answer to the question presented is easy:
5

The Majority does not deny these repercussions may likely
follow from today’s decision, but suggests such results are “preferable” to the consequences that will supposedly result from
adopting the element-or-defense test. Majority Opinion, slip op.
at 41. Specifically, the Majority fears the test will “transfer[ ] to
the legislature the power to erase the protections of the Fourth
Amendment[.]” Id. at 37. But “there are obviously constitutional
limits beyond which the States may not go in this regard[,]” Patterson, 432 U.S. at 210, and because the judiciary is well equipped
to make such determinations on a case-by-case basis, I see no reason to impose the unpliable rule the Majority does here based on
an unfounded belief the legislature may seek to circumvent the
Fourth Amendment in the future. I also find the Majority’s reliance on 35 P.S. §780-113(a)(16) as an example of an “untenable
consequence” of the element-or-defense test to be flawed. Compare Majority Opinion, slip op. at 40-41 (predicting unlimited
seizures of individuals with medical prescriptions because the
possession of a controlled substance statute has the “same statutory formulation” as the affirmative defense set forth at 18
Pa.C.S. §6108) with Commonwealth v. Sojourner, 408 A.2d 1108,
1113 (Pa. Super. 1979) (holding “ ‘non-authorization’ is an element of . . . Section 113(a)(16)” but nevertheless shifting the burden of production to the defendant because of policy concerns). In
any event, adopting the element-or-defense test merely leaves the
interpretation of statutes such as 35 P.S. §780-113(a)(16) for another day, when this Court can carefully consider whether the
legislature intended for a given licensing requirement to operate
as an affirmative defense and, if so, whether such allocation is
constitutionally permissible. The Majority’s analysis, in contrast,
imposes an immediate and irrevocable consequence, by rendering
all element-or-defense distinctions irrelevant for Fourth Amendment purposes.

A-93
because this Court has previously concluded “the absence of a license is an essential element of the crime”
of carrying a concealed weapon under Section 6106, see
McNeil, 337 A.2d at 843, an officer’s knowledge an individual is carrying a concealed firearm cannot, standing alone, furnish reasonable suspicion justifying a
Terry stop. As the majority opinion ultimately reaches
this same conclusion, I concur in the result, but I must
firmly distance myself from the majority’s analysis
and, in particular, its rejection of the element-ordefense test.
Justice Mundy joins this concurring opinion.

A-94
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
COMMONWEALTH
OF PENNSYLVANIA,
Respondent
v.
MICHAEL J. HICKS,
Petitioner

:
:
:
:
:
:
:

No. 286 MAL 2017
Petition for Allowance of
Appeal from: the Order of
the Superior Court

ORDER
PER CURIAM
AND NOW, this 2nd day of October, 2017, the Petition for Allowance of Appeal is GRANTED. The issue, as stated by petitioner, is:
Whether the Superior Court’s bright line rule
holding that possession of a concealed firearm
in public is sufficient to create reasonable suspicion is a matter of such substantial public
importance as to require prompt and definitive resolution by the Pennsylvania Supreme
Court?

A-95
J-S95043-16
NON-PRECEDENTIAL DECISION SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH
OF PENNSYLVANIA
v.
MICHAEL J. HICKS,
Appellant

:
:
:
:
:
:

IN THE SUPERIOR
COURT OF
PENNSYLVANIA
No. 510 EDA 2016

Appeal from the Judgment of Sentence January 11,
2016 in the Court of Common Pleas of Lehigh County,
Criminal Division, No(s): CP-39-CR-0005692-2014
BEFORE: STABILE, MOULTON and MUSMANNO, JJ.
MEMORANDUM BY MUSMANNO, J.:
FILED MARCH 29, 2017
Michael J. Hicks (“Hicks”) appeals from the judgment of sentence entered following his conviction of
driving under the influence of alcohol (“DUI”)—high
rate of alcohol (second offense).1 We affirm.
The suppression court briefly summarized the
facts underlying Hicks’s arrest as follows:
On June 28, 2014, at approximately 2:30
[a.m.], members of the Allentown Police Department [ ] were dispatched to the Pace
Mart[,] located at 640 N. 7th Street in Allentown, Pennsylvania[,] for a male with a
1

See 75 Pa.C.S.A. § 3802(b).

A-96
firearm. The male, later identified as . . .
[Hicks], was observed with the firearm by a
city camera operator. The camera operator
advised officers that [Hicks] showed the firearm to another patron, put the firearm in his
waistband, covered it with his shirt, and
walked inside the Pace Mart. [Hicks] eventually got back into his vehicle and began to
drive away. Based on the information provided, police stopped [Hicks’s] vehicle.
Officer Ryan Ailes [(“Officer Alles’’)] approached [Hicks] and observed him moving
his hands to his waistband. As such, [Officer]
Alles drew his weapon and ordered [Hicks] to
keep his hands up. Officer Kyle Pammer [(“Officer Pammer”)] held [Hicks’s] arms while [Officer] Alles removed the firearm from a holster
on [Hicks’s] person, [Hicks] was removed from
the vehicle for safety reasons and handcuffed.
Officers smelled the odor of an alcoholic beverage coming from [Hicks]. During a search of
[Hicks’s] person, a small bag of green leafy
vegetable matter was found in [Hicks’s]
pocket. The substance field tested positive for
marijuana.
Trial Court Order, 9/18/15, at 1-2 n.1.
Police arrested Hicks and charged him with the
above-described DUI charge, as well as with one count
each of disorderly conduct, DUI—general impairment
(second offense), and possession of a small amount of

A-97
marijuana.2 Hicks filed a pretrial suppression Motion
and a Motion for writ of habeas corpus as to the charge
of disorderly conduct. The suppression court denied
the suppression Motion, granted Hicks’s Motion for habeas corpus relief, and dismissed the charge of disorderly conduct. Following a non-jury trial, the trial
court convicted Hicks of DUI—high rate of alcohol (second offense), and acquitted him of the remaining
charges. Thereafter, the trial court sentenced Hicks to
30 days to six months in jail and to pay a fine. Hicks
filed a timely Notice of Appeal, followed by a courtordered Pa.R.A.P. 1925(b) Concise Statement of matters complained of on appeal.
Hicks presents the following claims for our review:
A. Whether the suppression court erred in
failing to grant [Hicks’s] request for suppression of evidence by erroneously applying the
“reasonable suspicion” standard?
B. Whether the suppression court erred in
finding that police had sufficient reasonable
suspicion to warrant the seizure of [Hicks]?
Brief for Appellant at 4. As Hicks’s claims are related,
we will address them together.
Hicks first claims that the suppression court applied the wrong standard in denying his suppression
Motion. Id. at 9. Hicks asserts that the suppression
court erred in determining whether police had
2

See 18 Pa.C.S.A. § 5503(a)(4); 75 Pa.C.S.A. § 3802(a)(1); 35
P.S. § 780113(a)(31).

A-98
“reasonable suspicion” of criminal activity, rather than
probable cause. Id. Hicks argues that “he was subjected to an illegal custodial detention[,]” unsupported
by the required probable cause. Id. at 9, 13. According
to Hicks, the police pole camera showed that four or
five marked police cruisers, with their lights flashing,
surrounded his vehicle. Id. at 12. Hicks states that Officer Alles approached Hicks with his gun drawn and
pointed at Hicks. Id. Hicks contends that the officers
did not inform him of the reason for the vehicle stop, or
inquire as to whether he had a permit to carry a firearm. Id. Hicks states that he was taken from his vehicle, handcuffed, frisked and placed into a police vehicle.
Id. Under these circumstances, Hicks asserts, he was
subjected to a custodial detention or an arrest, which
was not supported by the requisite probable cause. Id.
at 13.
In his second claim, Hicks argues that the officers
lacked reasonable suspicion to justify his “seizure.” Id.
at 15. Hicks contends that he lawfully possessed his
weapon, and there were no indications that criminal
activity was afoot. Id. at 16.
Our “standard of review in addressing a challenge
to the denial of a suppression motion is limited to determining whether the suppression court’s factual
findings are supported by the record and whether the
legal conclusions drawn from those facts are correct.”
Commonwealth v. Mason, 130 A.3d 148, 151 (Pa. Super. 2015) (citation omitted). “[O]ur scope of review is
limited to the factual findings and legal conclusions of
the suppression court.” In re L.J., 79 A.3d 1073, 1080

A-99
(Pa. 2013) (citation omitted). “We may consider only
the Commonwealth’s evidence and so much of the evidence for the defense as remains uncontradicted when
read in the context of the record as a whole.” Commonwealth v. Williams, 125 A.3d 425, 431 (Pa. Super.
2015) (citation omitted). “Once a defendant files a motion to suppress, the Commonwealth has the burden of
proving that the evidence in question was lawfully obtained without violating the defendant’s rights.” Commonwealth v. Fleet, 114 A.3d 840, 844 (Pa. Super.
2015) (citation omitted).
As this Court has explained,
[t]he Fourth Amendment of the Federal Constitution provides, “[t]he right of the people to
be secure in their persons, houses, papers, and
effects, against unreasonable searches and
seizures, shall not be violated. . . .” U.S. Const.
amend. IV. Likewise, Article I, Section 8 of the
Pennsylvania Constitution states, “[t]he people shall be secure in their persons, houses,
papers and possessions from unreasonable
searches and seizures . . . ” Pa. Const. Art. I,
§ 8. Under Pennsylvania law, there are three
levels of encounter that aid courts in conducting search and seizure analyses.
The first of these is a “mere encounter” (or
request for information) which need not
be supported by any level of suspicion,
but carries no official compulsion to stop
or respond. The second, an “investigative
detention” must be supported by reasonable suspicion; it subjects a suspect to a

A-100
stop and period of detention, but does not
involve such coercive conditions as to constitute the functional equivalent of arrest. Finally, an arrest or “custodial
detention” must be supported by probable
cause.
Commonwealth v. Williams, 73 A.3d 609,
613 (Pa. Super. 2013) (citation omitted), appeal denied, 624 Pa. 690, 87 A.3d 320 (Pa.
2014).
...
“The Fourth Amendment permits brief investigative stops . . . when a law enforcement officer has a particularized and objective basis
for suspecting the particular person stopped
of criminal activity.” Navarette v. California, 134 S. Ct. 1683, 1687, 188 L. Ed. 2d 680
(2014). It is axiomatic that to establish reasonable suspicion, an officer “must be able to
articulate something more than an inchoate
and unparticularized suspicion or hunch.”
United States v. Sokolow, 490 U.S. 1, 7, 109
S. Ct. 1581, 104 L. Ed. 2d 1 (1989) (internal
quotation marks and citations omitted). Unlike the other amendments pertaining to
criminal proceedings, the Fourth Amendment
is unique as it has standards built into its
text, i.e.[,] reasonableness and probable cause.
See generally U.S. Const. amend. IV.
Commonwealth v. Carter, 105 A.3d 765, 768-69 (Pa.
Super. 2014) (en banc); accord, Mason, 130 A.3d at
152.

A-101
Consequently,
[a]n officer who lacks the level of information
required for probable cause to arrest need not
“simply shrug his shoulders and allow a crime
to occur or a criminal to escape.” Adams v.
Williams, 407 U.S. 143, 145, 92 S. Ct. 1921,
32 L. Ed. 2d 612 (1972). Where an officer reasonably suspects that criminal activity is
afoot, the officer may temporarily freeze the
status quo by preventing the suspect from
leaving the scene in order to ascertain his
identity and gather additional information.
Terry v. Ohio, 392 U.S. 1, 21, 20 L. Ed. 2d
889, 88 S. Ct. 1868 (1968). The officer may also
conduct a quick frisk for weapons if he reasonably fears that the person with whom he is
dealing may be armed and dangerous. Id. The
question of whether reasonable suspicion existed at the time of an investigatory detention
must be answered by examining the totality
of the circumstances to determine whether
there was a particularized and objective basis
for suspecting the individual stopped of criminal activity. United States v. Cortez, 449
U.S. 411, 417, 66 L. Ed. 2d 621, 101 S. Ct. 690
(1981). There is no ready test for determining
reasonableness other than by balancing the
need to search or seize against the invasion to
which the search or seizure entails. Terry, 392
U.S. at 21. Police are generally justified in
stopping an individual when relying on information transmitted by a valid police bulletin.
United States v. Hensley, 469 U.S. 221, 232,
83 L. Ed. 2d 604, 105 S. Ct. 675 (1985).

A-102
In the Interest of D.M., 727 A.2d 556, 557-58 (Pa.
1999).
Finally, the United States Supreme Court has explained that “the right to make an arrest or investigatory stop necessarily carries with it the right to use
some degree of physical coercion or threat thereof to
effect it[.]” Graham v. Connor, 490 U.S. 386, 396
(1989). When police officers make an investigative
stop, they may take such steps as are “reasonably necessary to protect their personal safety and to maintain
the status quo during the course of the stop.” Hensley,
469 U.S. at 235. In evaluating the reasonableness of
the officer’s use of force, we “judge from the perspective
of a reasonable officer on the scene, rather than with
the 20/20 vision of hindsight.” Graham, 490 U.S. at
443.
At the suppression hearing, Officer Pammer, an
eight-year veteran of the Allentown Police Department, testified that at about 3:00 a.m., he and his partner, Officer Michael Mancini (“Officer Mancini”)
received a radio dispatch regarding “an individual at
the Pace Market Gulf station . . . that was brandishing
a firearm.” N.T., 7/14/15, at 6. Officer Pammer described the location as a “high crime neighborhood,”
and explained that the police department has received
calls regarding drug dealing, people with weapons and
loitering at that location. Id. at 7. According to Officer
Pammer, the radio dispatch informed all units “that a
male in a white shirt was brandishing a firearm towards another male at the Pace Mart and that he was
driving, I believe it was a silver Chevy.” Id. at 7-8.

A-103
Officer Pammer described what next transpired as follows:
Myself and Officer Mancini[,] including several other officers that were available at that
time[,] proceeding to that location. As we were
pulling up to the location, I observed that Officer Alles was the first officer to be on location. He was at the rear of . . . [Hicks’s]
vehicle, which was a silver Chevy Impala. It
was occupied by one male[,] who was [Hicks].
He was at the gas pumps, [Hicks] was in the
vehicle and it was running.
Id. at 8. Officer Pammer stated that he and the other
officers were in uniform, and were driving marked police units. Id. Officer Pammer testified as to what he
observed as follows:
When I first arrived, . . . Officer Alles . . . began running up towards the vehicle, [and]
about halfway up towards the vehicle[,] I observed that he did unholster his weapon due
to the nature of the call. . . . I heard him yelling verbal commands, I couldn’t make them
out because we were still a distance away. He
went up to the . . . driver’s side of the door and
appeared to be giving commands to [Hicks].
...
I started approaching[ ] Officer Alles and the
vehicle. Officer Alles was giving verbal commands to show us his hands. I saw that [ ]
Hicks was moving his hands around in the car.
I got up to Officer Alles, he advised me that

A-104
[Hicks] had a gun on him. Officer Alles still
had his weapon out at the time. I grabbed both
of [Hicks’s] hands and held on to him while
Officer Alles removed the firearm from the
right side of [ ] Hicks.
...
[Hicks] was removed from the vehicle after
the gun was removed safely. I could smell,
upon talking to him, he smelled like alcohol.
Officer Alles put handcuffs on him and then[,]
while I was there[,] Officer Mancini started a
pat[-]down of the outer garments of [ ] Hicks
for any other weapons. . . . Officer Mancini removed a baggie of suspected marijuana from
[ ] Hicks’s front right pocket.
...
We confirmed that [Hicks] did have a concealed carry permit through Lehigh County.
Id. at 9-11.
Contrary to Hicks’s assertions, we discern no error
or abuse of discretion by the suppression court in its
application of the “reasonable suspicion” standard.
Here, police stopped Hicks based upon a radio dispatch
regarding a man brandishing a firearm. “[P]ossession
of a concealed firearm in public is sufficient to create a
reasonable suspicion that the individual may be dangerous, such that an officer can approach the individual and briefly detain him in order to investigate
whether the person is properly licensed.” Mason, 130
A.3d at 153 (quoting Commonwealth v. Robinson,

A-105
600 A.2d 957, 959 (Pa. Super. 1991)); see also In the
Interest of D.M., 727 A.2d at 558 (stating that
“[p]olice are generally justified in stopping an individual when relying on information transmitted by a valid
police bulletin”). Thus, the trial court properly ascertained whether officers had a reasonable suspicion
that Hicks possessed a concealed firearm in public. See
Mason, 130 A.3d at 153.
Viewed in a light most favorable to the Commonwealth, the totality of the circumstances further established that the officers’ actions in removing Hicks from
the vehicle and securing him were supported by reasonable suspicion, and reasonably necessary to “freeze
the status quo[,]” prevent Hicks from leaving the scene
“in order to ascertain his identity and gather additional information[,]” and to protect the officers’ personal safety. See Hensley, 469 U.S. at 235; D.M., 727
A.2d at 557. As set forth above, officers received a radio
dispatch about a man in a white shirt brandishing a
weapon to another man at the Pace Mart. N.T., 7/14/15,
at 7. The dispatch indicated that the man was driving
a silver Chevrolet Impala. Id. at 8. Upon arriving at
the Pace Mart, Officer Pammer observed Officer Alles
approaching Hicks, who was in a silver Chevrolet Impala located at the gas pumps. Id. When Officer
Pammer approached the vehicle, he heard Officer Alles
give Hicks commands to “show us his hands[,]” but
Hicks “was moving his hands around in the car.” Id. at
10. Officer Alles advised Officer Pammer that Hicks
still possessed a gun. Id. Upon Officer Pammer restraining Hicks’s hands, Officer Alles removed the

A-106
weapon from Hicks, after which Hicks was removed
from the vehicle. Id. At that time, Officer Pammer noticed an odor of alcohol on Hicks. Id. at 10-11. Accordingly, we discern no error or abuse of discretion by the
suppression court in the standard it applied or in its
conclusion that the stop was supported by the requisite
reasonable suspicion of criminal activity.
Judgment of sentence affirmed.
Judgment Entered.
/s/ Joseph D. Seletyn
Joseph D. Seletyn, Esq.
Prothonotary
Date: 3/29/2017

A-107
IN THE COURT OF COMMON PLEAS
OF LEHIGH COUNTY, PENNSYLVANIA
CRIMINAL DIVISION
COMMONWEALTH
OF PENNSYLVANIA
vs.
MICHAEL J. HICKS,
Defendant

| No. 5692-2014
|
|
|
|
|

ORDER
(Filed Apr. 7, 2016)
AND NOW, this 17th day of April 2016, it appearing that the defendant has filed a Notice of Appeal in
the above-captioned case, and it further appearing that
the accompanying Memorandum Opinion satisfies the
requirements of Pa.R.A.P. 1925(a),
IT IS ORDERED that the Clerk of Courts, Criminal Division, transmit the record in the above-captioned case to the Superior Court forthwith.
BY THE COURT:
/s/ James T. Anthony
James T. Anthony, Judge

A-108
IN THE COURT OF COMMON PLEAS
OF LEHIGH COUNTY, PENNSYLVANIA
CRIMINAL DIVISION
COMMONWEALTH
OF PENNSYLVANIA
vs.
MICHAEL J. HICKS,
Defendant

|
|
|
|
|
|

No. 5692-2014

Pa.R.A.P. 1925(a) OPINION
James T. Anthony, Judge:
Following a non-jury trial on January 11, 2016, I
found the defendant guilty of driving under the influence, and immediately sentenced the defendant to 30
days to 6 months in the Lehigh County Jail. On February 9, 2016, the defendant filed the instant appeal. Pursuant to Pa.R.A.P. 1925(b), I issued an order directing
the defendant to file a concise statement of errors complained of on appeal within 21 days after entry of the
order. On March 2, 2016, the defendant filed a concise
statement alleging only that I erred in denying his pretrial motion to suppress. Specifically, the defendant
alleges I erred in applying a reasonable suspicion
standard, and in subsequently finding that officers
possessed a reasonable suspicion.
For reasons stated in my order of September 18,
2015, denying the defendant’s motion, which I incorporate herein, I submit I did not err in denying the motion to suppress. Additionally, I find it was proper to

A-109
apply a “reasonable suspicion” standard to the facts of
this case. The officers were investigating a report of a
person possessing a firearm in a public place, and were
justified in briefly detaining the defendant to determine whether he was licensed. Nothing the officers did
was so coercive as to rise to the level of a custodial detention. See Com. v. Johnson, 849 A.2d 1236 (Pa. Super.
2004) (investigative detention not invalidated by officers drawing weapons); Com. v. Guillespie, 745 A.2d 654
(Pa.Super. 2000) (handcuffing suspects during investigatory detention did not constitute an arrest). The actions taken by the officers were part and parcel of
ensuring their safety and the safety of the public while
they completed their investigation. Once they discovered marijuana on the defendant’s person, they were
justified in making an arrest.
Based on the reasons set forth above and in my
order of September 18, 2015, I find no merit in the defendant’s appeal. I respectfully submit that the appeal
be dismissed and the judgment of sentence affirmed.
April 7, 2016
/s/ James T. Anthony
James T. Anthony, Judge

A-110
IN THE COURT OF COMMON PLEAS
OF LEHIGH COUNTY, PENNSYLVANIA
CRIMINAL DIVISION
COMMONWEALTH OF
PENNSYLVANIA
vs.
MICHAEL J. HICKS,
Defendant

|
|
|
|
|
|

No. 5692-2014

ORDER
(Filed Sep. 18, 2015)
AND NOW, this 18th day of September 2015,
upon consideration of the defendant’s Omnibus Pretrial Motion, filed April 8, 2015, and after hearing held
July 14, 2015,
IT IS HEREBY ORDERED that the Motion to
Suppress Physical Evidence is DENIED.1

1

On June 28, 2014, at approximately 2:30 AM, members of
the Allentown Police Department (APD) were dispatched to the
Pace Mart located at 640 N 7th Street in Allentown, Pennsylvania
for a male with a firearm. The male, later identified as the defendant, Michael Hicks, was observed with the firearm by a city camera operator. The camera operator advised officers that the
defendant showed the firearm to another patron, put the firearm
in his waistband, covered it with his shirt, and walked inside the
Pace Mart. The defendant eventually got back into his vehicle and
began to drive away. Based on information provided, police
stopped the defendant’s vehicle.
Officer Ryan Alles approached the defendant and observed
him moving his hands to his waistband. As such Alles drew his

A-111
IT IS FURTHER ORDERED that the Motion
for Writ of Habeas Corpus is GRANTED.2 Count 3
of the information, Disorderly Conduct, is hereby
DISMISSED.

weapon and ordered the defendant to keep his hands up. Officer
Kyle Pammer held the defendant’s arms while Alles removed the
firearm from a holster on the defendant’s person. The defendant
was removed from the vehicle for safety reasons and handcuffed.
Officers smelled the odor of an alcoholic beverage coming from the
defendant. During a search of the defendant’s person, a small bag
of green leafy vegetable matter was found in the defendant’s
pocket. The substance field tested positive for marijuana.
“In limited circumstances, an individual may be stopped,
briefly detained, and frisked for investigatory purposes.” Commonwealth v. Robinson, 600 A.2d 957, 959 (Pa.Super. 1991). Possession of a concealed weapon in public creates a reasonable
suspicion justifying an investigatory stop in order to investigate
whether the person is properly licensed. Id. (holding recognized
by Commonwealth v. Hall, 929 A.2d 1202, 1207 (Pa. Super.
2007)). Here, the police had information that the defendant was
carrying a concealed weapon, and were justified in briefly detaining the defendant in order to determine whether the defendant
was properly licensed. As officers approached the defendant, he
moved his hands towards his waistband. This provided additional
information to justify the brief detention of the defendant in order
to investigate further. Under these circumstances, the stop and
detention of the defendant was justified, and suppression is not
warranted.
2
Based on the evidence presented, the Commonwealth has
failed to produce a prima facie case regarding the Disorderly Conduct charge. There was no evidence presented that the defendant’s actions were intended to cause substantial harm or serious
inconvenience, or that he persisted in disorderly conduct after
reasonable warning or request to desist.

A-112
BY THE COURT:
/s/ James T. Anthony
James T. Anthony, Judge

A-113
COURT OF COMMON PLEAS OF
LEHIGH COUNTY, PENNSYLVANIA
CRIMINAL DIVISION
Commonwealth of Pennsylvania )
) No. 5692 of
v.
)
2013 [sic]
Michael J. Hicks,
)
Hearing
)
Defendant
NOTES OF TESTIMONY
HEARD BEFORE THE HONORABLE
JAMES T. ANTHONY, J.
July 14, 2015
Courtroom No. 2-C, Lehigh County Courthouse
Allentown, PA 18101-1614
APPEARANCES:
A. RENEE SMITH, ESQUIRE
- On behalf of the Commonwealth
KATHRYN R. SMITH, ESQUIRE
On behalf of the Defendant, Michael J. Hicks

WITNESSES
[2] WITNESS
KYLE PAMMER
Direct Examination by Ms. Renee Smith
Cross-Examination by Ms. Kathryn Smith

PAGE
5
14

A-114
[3] EXHIBITS

MARKED ADMITTED

COMMONWEALTH
EXHIBIT 1
Document

13

14

DEFENSE EXHIBIT 1
Video

20

26

DEFENSE EXHIBIT 2
Video

20

26

[4] * * *
Whereupon hearing begins
***
THE COURT:
torney Smith.

Okay. All right. Go ahead, At-

MS. RENEE SMITH: Your Honor, this is
Commonwealth v. Michael Hicks, case number 5692 of
2014. They filed their Omnibus Pre-Trial Motion and
that’s what we’re here for this afternoon.
THE COURT: Okay. And what – okay. In the
nature of a habeas or –
MS. KATHRYN SMITH: A suppression motion, Your Honor, based on the legality of the stop, as
well as a habeas on the disorderly conduct count only.
There is a motion to compel discovery. However, I am
going to withdraw that at this point. I believe I have
been provided everything and if not I certainly will
have no problem getting it.

A-115
THE COURT: All right. We’ll note that. and
it will be dismissed. [5] The motion to compel discovery
is moot basically. Correct?
MS. KATHRYN SMITH: Correct.
THE COURT: All right. Then Attorney
Smith, you may proceed.
MS. RENEE SMITH:
Officer Pammer.
THE COURT:
ahead, Attorney Smith.

I would like to call

Sure. Okay. Proceed. Go

MS. RENEE SMITH:

All right.

***
KYLE PAMMER, WITNESS, SWORN
DIRECT EXAMINATION
***
BY MS. RENEE SMITH:
Q.

State your name for the record, please.

A.

My name is Officer Kyle Pammer.

Q.

And where are you employed?

A.

I’m a police officer with the City of Allentown.

Q.
ficer?

And how long have you been a police [6] of-

A.

I’m in my eighth year with the department.

A-116
Q. All right. Now, Officer Pammer, directing your
attention back to June 28th of 2014, close to 3 a.m. in
the morning, were you working at that time?
A. I was. I was partnered with Officer Mancini,
me and Officer Mancini are assigned to the Strategic
Enforcement Detail and we were partnered in a vehicle together that night.
Q. All right. Now, a little bit before 3 a.m. in the
morning, did you receive any calls to respond to a location?
A. Yes. They – a tone went out over our police dispatch. A tone in our police department usually is an
indicator to all city police units that evening or who is
on the radio that a serious call is unfolding and to wait
for the dispatch to give it to you. So, a tone went out
around 3 a.m. for an individual at the Pace Market
Gulf station at Seventh and Tilghman Streets that was
brandishing a firearm.
[7] Q. All right. Now, can you tell us a little bit
about the Pace Market at Seventh and Tilghman?
A. The Pace Mart is a Gulf station at Seventh
and Tilghman. We, as a unit and as a department, receive several calls involving that location including
drug dealing, people with weapons, loitering, things
along that nature. And many of these I have been a
part of their investigations.
Q. All right. Now, as far as that location, how
would you say that is with regard to a crime neighborhood?

A-117
A.

It’s in a high crime neighborhood.

Q. All right. Now, on this particular evening or
early morning hours, I should say, can you tell us why
you went to that location?
A. Yes. Like I said, a tone went out alerting all
police units in the City of Allentown that a serious incident was occurring. Our dispatchers advised over our
police dispatch to all units that a male in a white shirt
was brandishing a firearm towards another male at
the Pace Mart and that he was [8] driving, I believe it
was a silver Chevy Impala.
Q.

All right. And what did you do at that point?

A. Myself and Officer Mancini including several
other officers that were available at that time-proceeded to that location. As we were pulling up to the
location, I observed that Officer Alles was the first officer to be on location. He was at the rear of – it would
be, they determined it was the defendant’s vehicle,
which was a silver Chevy Impala. It was occupied by
one male who was the defendant. He was at the gas
pumps, the defendant was in the vehicle and it was
running.
Q. All right. Now, you said the other officer was
to the rear. Was that officer in a marked police unit?
A.

Yes, he was.

Q.

And in police uniform?

A.

He was.

A-118
Q.

And how about yourself ?

A. I was in a full police uniform and a full
marked police car.
[9] Q. All right. Now, when you first arrived, tell
us what you observed.
A. When I first arrived, like I said, Officer Alles
was the first one on scene, he began running up towards the vehicle, about halfway up towards the vehicle I observed that he did unholster his weapon due to
the nature of the call. He was – I heard him yelling
verbal commands, I couldn’t make them out because
we were still a distance away. He went up to the passenger’s – driver’s side of the door and appeared to be
giving commands to the defendant.
Q. Now, the defendant that you’re talking about,
is he in the courtroom?
A.

Yes, he is.

Q.

And can you identify him for us, please?

A. He’s sitting next to defense counsel in the
gray polo shirt.
MS. RENEE SMITH:
he’s identified the defendant.
THE COURT:

Let the record reflect

The record will so reflect.

[10] Q. Now, was there anyone else in the vehicle
besides the defendant?
A.

No.

A-119
Q.
time?

All right. And what did you observe at that

A. I started approaching, Officer Alles and the
vehicle. Officer Alles was giving verbal commands to
show us his hands. I saw that Mr. Hicks was moving
his hands around in the car. I got up to Officer Alles, he
advised me that the defendant had a gun on him. Officer Alles still had his weapon out at the time. I
grabbed both of the defendant’s hands and held on to
him while Officer Alles removed the firearm from the
right side of Mr. Hicks.
Q.

Okay. Now, where was the weapon that he –

A. It was on the right side. I think it was in a
holster of the defendant.
Q. Okay. Now, after the gun was removed was
anything else done at that point?
A. Yes. He was removed from the vehicle after
the gun was removed safely. I could smell, upon talking
to him, he smelled like [11] alcohol. Officer Alles put
handcuffs on him and then while I was there Officer
Mancini started a pat down of the outer garments of
Mr. Hicks for any other weapons. A – I believe, I mean,
Officer Mancini removed a baggie of suspected marijuana from Mr. Hicks’ front right pocket.
Q. All right. At some point was it determined
whether the defendant had a – had permission to carry
a concealed weapon?

A-120
A. Yes. Yes. We confirmed that he did have a concealed carry permit through Lehigh County.
Q.

Okay.

A.

And the gun was registered to him.

Q. All right. At the time of the call, you would
have to check that out though, that would not be evident from – coming to that call. Correct?
A. No. No, not until you get specifics of his name,
birthdate, the permit and then being able to contact
Lehigh County.
Q. All right. Now, you indicated that you smelled
alcohol. After you determined or someone determined
that he did have a permit [12] to carry what was – what
happened to Mr. Hicks?
A. I believe he was taken into custody for suspicion of DUI and the suspected marijuana that was located in this right front pocket.
Q. All right. And where is someone who is suspected of DUI transported?
A. They are transported to the Lehigh County
DUI Center for processing.
Q.

And where is that located?

A. That is, I believe, it’s 36 or 38 North Fourth
Street inside Lehigh County Prison.
Q.
test?

All right. And Mr. Hicks consented to a blood

A-121
A.

I didn’t do the transport, but I imagine he did

if –
Q Well, if the paperwork was there when a blood
sample – the correct procedure in Allentown Police is
to get – you ask for a blood sample?
A.

Yes, it is.

Q All right. If we could have this marked as Commonwealth Exhibit 1.
THE COURT:
into evidence?

All right. Are you offering it

[13] MS. RENEE SMITH:
Well, he’s going to identify it first.

Yes, Your Honor.

THE COURT: That’s fine. You don’t have
any objection to Commonwealth Exhibit 1, do you?
MS. KATHRYN SMITH: I do not, Judge.
THE COURT: All right. Then I know you’re
going to introduce it, but that’s admitted into evidence.
Q. All right. I’ll hand you what’s been marked
Commonwealth Exhibit 1. What is Commonwealth Exhibit 1?
A. This is a drug and alcohol analysis report
from the Lehigh County DUI Processing Center.
Q. And can you tell us where the laboratory is
that does the blood alcohol for the Lehigh County
Booking Center?

A-122
A. Yes, once the blood is taken at the DUI Center
in Lehigh County, it’s shipped out for processing at
Health Network Laboratories which is 2024 Lehigh
Street in the City of Allentown.
[14] Q.

Okay.

MS. RENEE SMITH: Your Honor, I would
like the Court to take judicial notice that Health Network Laboratories is an approved lab pursuant to the
Pennsylvania Bulletin to conduct alcohol testing.
MS. KATHRYN SMITH: I have no objection
to that either, Your Honor.
THE COURT:

All right. That is so judicially

noticed.
Q.

All right.

MS. RENEE SMITH:
tions of Officer Pammer.
THE COURT:

I have no further ques-

All right.
***

CROSS-EXAMINATION
***
BY MS. KATHRYN SMITH:
Q.

Good afternoon, Officer Pammer.

A.

Good afternoon.

Q. Just a couple of questions for you. Do you recall specifically what the dispatch [15] would have

A-123
said? I know you said brandishing a firearm, do you
recall that the dispatch actually said firearm – just
showed it to another individual at the gas station?
A. I don’t remember that, I just remember that it
was brandishing – it doesn’t – they didn’t state that it
was pointed or –
Q.

Okay.

A. – or you know, threatening somebody with it,
just somebody was holding a gun, along that nature.
Q. And you received that information over a police radio broadcast?
A.

Yes.

Q. Okay. And to the best of your knowledge are
those recorded?
A.

They should be. Yes.

Q. Okay. So, if there are recordings of those police
broadcasts, they would be the true and accurate information that you received on that evening. Correct?
A.

Correct.

Q. Okay. When you actually got to the Pace Mart
or – is that what it’s called, Pace Mart?
[16] A.

Pace Mart, Gulf, Gulf station.

Q.

Okay.

A.

There are like two different names for it.

A-124
Q. When you actually got to the Pace Mart was –
was there already police vehicles there?
A. The first car that was there was Officer Alles,
he was the only one there.
Q. Okay. And was he in a marked police vehicle
at that time?
A.

Yes, he was.

Q. Okay. Do you recall whether the police emergency lights were on?
A.

I don’t – I don’t remember if it was or not.

Q. Okay. This – this incident actually was initially seen by a police video camera. Is that – is that
your best recollection?
A. I believe so. There is one at Seventh and Tilghman where this happened.
Q. Okay. And if that – if that video was kept and
recorded that would accurately show the – that information. Correct?
A. Yes. I do not know how long the [17] videos are
actually recorded for unless you make a request for it.
I don’t know if a request was made, it wasn’t my case,
ma’am.
Q. But as best as you recall, you can’t remember
whether or not he had the emergency lights on?
A.

No, I do not.

A-125
Q. Okay. When you pulled up in your police vehicle were the emergency lights on?
A.

No, we were facing him –

Q.

Okay.

A.

– in a marked car.

Q. Was Officer Alles still in his vehicle or was he
outside of his vehicle when you got there?
A. No, when we pulled up, he was jogging towards your defendant’s car.
Q. Okay. And you did – you saw the officer – drew
his weapon at the time?
A. Yes, he upholstered [sic] his weapon about
halfway between his car and the defendant’s car.
Q. Okay. And you – if I remember correctly, you
couldn’t necessarily hear what he was saying at that
point.
[18] A.

No, I could not.

Q. Okay. When you got over to the vehicle, where
was this defendant?
A.

He was the driver in the silver Impala.

Q. Okay. And when you first got there how were
him and Officer Alles engaged?
A. He was giving him verbal commands at the
point I came over, Mr. Hicks did comply and did put his
hands, I believe, up on the steering wheel.

A-126
Q. Okay. Do you remember him indicating to you
guys that the weapon was in a holster and he would
need to tell you how to get it out? Do you remember
that at all?
A.

No, I do not.

Q. Okay. Do you remember having trouble getting the weapon out of the holster?
A. I didn’t retrieve it so I don’t know if Officer
Alles did. All I know is that when I grabbed his hands,
he reached over and was able to pull it out eventually.
Q. Okay. The – you were actually – and I think if
I – you were holding his hands while Officer Alles went
to try to retrieve the weapon?
[19] A.

Correct.

Q. Okay. At that point in time was he struggling
with you, anything like that?
A.

No.

Q. Do you remember him telling you whether or
not he had – whether he had a license to carry at that
point in time?
A.

He did afterwards. Yes.

Q. Was that – was that after you got him out of
the vehicle?
A.
car.

After I got there. After I got to the scene of the

A-127
Q. Okay. But nevertheless, you guys decided to –
to pull him out of the car and handcuff him for –
A.

For safety reasons, absolutely.

Q. Okay. And it was at that point after you got
him out of the car that you actually were able to smell
alcohol?
A.
cohol.

Yes, when I was talking to him, I did smell al-

Q. Okay. And the same thing, at that point in
time that was when you observed Officer Mancini with
the – retrieved the marijuana.
[20] A.

Correct.

MS. KATHRYN SMITH: If I could just have
the Court’s indulgence for one second.
THE COURT:

Sure.

MS. KATHRYN SMITH:
questions.

I have no other

Q.

Thank you, Officer Pammer.

A.

You’re welcome.

MS. RENEE SMITH:
tions, Your Honor.

I have no further ques-

THE COURT: All right. Then, Officer, you
may take a seat. Any other witnesses?
MS. RENEE SMITH:

No, Your Honor.

A-128
THE COURT:

All right. Anything from the

defense?
MS. KATHRYN SMITH: Judge, I would
move for the admission of Defense Exhibit 1 and Defense Exhibit 2. Defense Exhibit 1 is the video, actually,
from the pole camera at the Pace Mart.
THE COURT:

Does it show –

[21] MS. KATHRYN SMITH: It shows most
of it. It actually is very interesting to watch.
THE COURT:

And tell me what I’m going to

see?
MS. KATHRYN SMITH: There is – you see
Mr. Hicks pull up to the pump –
THE COURT:

Pace Mart.

MS. KATHRYN SMITH: You – it’s very, very
difficult to observe a gun. The camera operator says he
observed a gun, you certainly see like a motion down
to there where he may be showing the other gentlemen
at the pumps the gun, goes into the Pace Mart, comes
back out, gets into his car, actually begins to pull out of
the Pace Mart and that’s when the police vehicles come
in. And I do believe the video will show they come in,
sirens flashing – sirens wailing, lights flashing, and
then not too much different than Officer Pammer’s description as far as the – the officers then taking him
out.
THE COURT: All right. [22] So, the gist of
your argument is what then?

A-129
MS. KATHRYN SMITH: Well, two arguments, first of all.
THE COURT:

All right.

MS. KATHRYN SMITH: I believe it is – it’s
the functional equivalent of an arrest. I think probable
cause should apply here and not reasonable suspicion.
He is in a vehicle, he is leaving. Any sort of danger that
they perceived at the Pace Mart is over at the time that
he’s in the car and trying to exit. I think probable cause
should be the standard here. Regardless of whether it’s
a probable cause or reasonable suspicion standard is
the very fact that a camera operator thinks he sees a
gun, reasonable suspicion that a crime has been committed. He has a license to carry this weapon.
THE COURT: Was there any – were there
any complaints coming from citizens or anything like
that? Were there any calls to the police? Aside from the
camera operator.
MS. RENEE SMITH:
operator, I believe.

Just [23] the camera

MS. KATHRYN SMITH: I believe because –
THE COURT: So, there were no reports that
he was assaulting anybody or threatening anybody.
MS. KATHRYN SMITH: When I subpoena
things, I subpoena all of the police radio calls regarding
that incident number. So, if there were anything else
that would have been called into the police regarding
this incident, I would have –

A-130
MS. RENEE SMITH:
have, that’s the only thing.

That’s the only thing I

THE COURT: As far as you know, Attorney
Smith, no one from Pace Mart called, no –
MS. RENEE SMITH:

The camera operator

called.
THE COURT:

Well, I know the camera –

MS. RENEE SMITH:
THE COURT:

Yeah.

– but [24] that’s a city em-

ployee.
MS. RENEE SMITH:

I believe so, Your

Honor.
THE COURT:

Right.

MS. KATHRYN SMITH: Yes.
THE COURT: Who was watching the scene.
But no one from Pace Mart called to say this man has
a gun, he’s –
MS. RENEE SMITH:
Your Honor.
THE COURT:
like that.

Not to my knowledge,

– threatening me or anything

MS. RENEE SMITH:

No, Your Honor.

THE COURT: Okay. All right. Go ahead.
Your client keeps raising his hand back there.

A-131
MR. HICKS: I just want to note that in the
video you’re going to see I passed three or four pedestrians and shake their hands and nobody is startled or
alarmed.
THE COURT: Now, this holster, was it in
the open? I mean, in other words. he was wearing it
like a –
[25] MS. KATHRYN SMITH: It’s a right hip
holster that would have sat outside of his pants.
THE COURT: So, in other words, no shirt
over it or anything like that?
MS. KATHRYN SMITH: You can’t actually
see the – and you will see in the video, you can’t actually see the weapon in the video. So, it’s – it’s very difficult to see –
THE COURT: But he has a – he has a license to carry a concealed weapon, nonetheless.
MS. KATHRYN SMITH: Yes.
THE COURT: And conversely, you are allowed to carry a weapon.
MS. KATHRYN SMITH: So, is it even reasonable suspicion that –
THE COURT: No, I understand the issue. I
just want to make sure that’s – okay.
MS. RENEE SMITH: [26]

Yes, Your Honor.

A-132
MS. KATHRYN SMITH: And we’ll just submit these, Your Honor, we don’t –
MS. RENEE SMITH:

I have no objection.

THE COURT: Now, are those different angles? Is that what those –
MS. KATHRYN SMITH: One is a camera
and one is the police radio broadcast just because it
shows the information that the officers had from the –
from the camera operators. And they’re actually both
fairly short.
THE COURT: Okay. All right. Then I will accept those into evidence without objection. And that’s
it then. Right?
MS. KATHRYN SMITH:

And then nothing

further.
MS. RENEE SMITH:
THE COURT:

Yes, Your Honor.

Now, do you want to submit

memos?
MS. RENEE SMITH: I [27] have two cases
to cite which I could give you. I don’t know if you want
a memo.
THE COURT: Well, why don’t you do this,
why don’t – I’m not going to issue an order, but if you
want to submit a memo just submit it within two
weeks. Okay.

A-133
MS. KATHRYN SMITH: That would be
great, Judge.
THE COURT: Just file it and then – and
send a copy to opposing counsel.
MS. KATHRYN SMITH: Sure.
THE COURT: And an extra copy to the
Court and then we will issue a decision. Now, and this
is a – strictly a DUI and a disorderly conduct.
MS. RENEE SMITH:
and the small amount.
THE COURT:
though. Right?

This can be handled as a DUI

MS. RENEE SMITH:
court, yes, Your Honor.
THE COURT:

Disorderly conduct

It’s handled in DUI

Okay.

MS. KATHRYN SMITH: [28] And I suppose
I should make an argument on the disorderly conduct
habeas.
THE COURT:

Okay. Yes. Sure.

MS. KATHRYN SMITH: I’m not sure the officer said anything that amounts to a misdemeanor
three disorderly conduct and I think the video will
show that there is no misdemeanor three disorderly
conduct here, Judge.
THE COURT: So, I will put this on a status
date, DUI list. And we should be able to have this –

A-134
why don’t we put it on the September 21st list for status. Now, would he qualify for ARD?
MS. RENEE SMITH:
fense, Judge.

No, he’s a second of-

MS. KATHRYN SMITH: It’s his second offense.
THE COURT: Second offense. Okay. So, I
will put it on for 1:30 on the 21st of September.
MS. KATHRYN SMITH: That will be fine,
Your Honor.
[29] * * *
Whereupon hearing concludes
***

[30] [Certification Omitted]

